<html>
<title> - FEDERAL GOVERNMENT INTELLIGENCE SHARING WITH STATE, LOCAL, AND TRIBAL LAW ENFORCEMENT: AN ASSESSMENT TEN YEARS AFTER 9/11</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







 FEDERAL GOVERNMENT INTELLIGENCE SHARING WITH STATE, LOCAL, AND TRIBAL 
          LAW ENFORCEMENT: AN ASSESSMENT TEN YEARS AFTER 9/11

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2012

                               __________

                           Serial No. 112-70

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

76-516 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001

















                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Brian Higgins, New York
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Kathleen C. Hochul, New York
Ben Quayle, Arizona                  Janice Hahn, California
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
               Hope Goins, Minority Subcommittee Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3

                               Witnesses

Mr. Scott McAllister, Deputy Under Secretary, State and Local 
  Program Office, Office of Intelligence and Analysis, Department 
  of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     7
Mr. Louis Quijas, Assistant Secretary, Office for State and Local 
  Law Enforcement, Deparment of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................     7
Mr. Eric Velez-Villar, Assistant Director, Federal Bureau of 
  Investigation, Department of Justice:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Ms. Maurita J. Bryant, Assistant Chief, Pittsburgh Bureau of 
  Police:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17

                                Appendix

Questions Submitted by Chairman Patrick Meehan for Scott 
  McAllister and Louis F. Quijas.................................    33
Questions Submitted by Chairman Patrick Meehan for Eric Velez-
  Villar.........................................................    37

 
 FEDERAL GOVERNMENT INTELLIGENCE SHARING WITH STATE, LOCAL, AND TRIBAL 
          LAW ENFORCEMENT: AN ASSESSMENT TEN YEARS AFTER 9/11

                              ----------                              


                       Tuesday, February 28, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Long, Cravaack, Higgins, 
Hochul, and Hahn.
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order.
    The subcommittee is meeting today to hear testimony 
regarding an assessment of the Federal Government sharing 
intelligence with State, local, and Tribal law enforcement 
entities. I now recognize myself for an opening statement.
    I would like to welcome everyone to today's hearing, and I 
look forward to hearing from the witnesses on this important 
issue, but before we begin the actual substance of the meeting, 
I would like to take formal notice of the new Member sitting to 
my left, Congressman Brian Higgins from Buffalo, New York, the 
new Ranking Member of the subcommittee.
    We have been discussing a little bit of ice hockey up here 
for the last minute or so. These are important issues before 
us. But I know from his very genuine and deep involvement in 
the numerous issues we have had here before the subcommittee to 
this year, he has been thoughtful and thorough in his approach, 
and I look forward greatly to continuing the great 
collaboration in a bipartisan fashion we have had on this 
committee through the year.
    I also want to take a moment to express formally for the 
record my deep appreciation for the service from Congresswoman 
Jackie Speier from California, who has left us to move to the 
higher waters of the Armed Services Committee. But it was a 
unique opportunity for some issues that related back to 
Congresswoman Speier and her district. I know she reluctantly 
handed over the sharing of the gavel, so to speak, on this 
committee, but I am deeply appreciative of the great work that 
she has done, had done, again, in a collaborative fashion, and 
look forward to working with her on some of the issues in her 
position. I am sure she will still remember the important work 
we do in this subcommittee.
    Over the last year, the subcommittee has held hearings on a 
number of issues related to intelligence sharing and DHS's role 
when coordinating with its State, local, and Tribal partners to 
collect, analyze, share, and disseminate critical intelligence 
to the public and to private stakeholders Nation-wide. It is an 
important time right now, because we are 10 years after 9/11. 
It is important we assess the role of fusion centers as members 
of the National, State, and local intelligence and law 
enforcement communities and ask the important questions about 
their performance to date and discuss the outlook for the 
future.
    I had the opportunity to be the United States attorney in 
Philadelphia after 9/11, took office just 6 days, and we as an 
entire Nation were responding to the new challenge of 
information sharing. I remember the initiation of fusion center 
programs, and supported them.
    However, today what was envisioned 10 years ago appears to 
be different in some measures to what is currently in place 
today. That may be the result of a logical evolution, and it 
may very well be a good thing, but both the Government 
Accountability Office and the DHS inspector general have 
reported that DHS still lacks effective means to assess its 
strategy to support State fusion centers. I think that is 
something that we should be focused on to see how we can make 
progress in that area.
    There has been strides made, but I think there are a couple 
of important questions that we need to ask. Where does DHS 
stand on developing metrics and defining requirements to gauge 
the efficacy, relevancy, and impact of fusion centers on local, 
State, and Federal partners? How does DHS plan to hold fusion 
centers to these measurable requirements? How will DHS and 
Federal Government sustain fusion centers financially, 
including determining a level of Federal funding and support 
for each center, as we appreciate the great struggles that we 
are have on the Federal level to deal with the budget deficit? 
Then how does the DHS plan to standardize procedure for all 
fusion centers to guide the type of information that is 
collected, the methods utilized for collection, and the manner 
in which it is analyzed?
    I am also interested personally in understanding better the 
guidelines in place at the National level and, more 
importantly, at the State and local level to protect individual 
privacy. As many of you on this panel are aware, the 
Pennsylvania director of homeland security resigned following 
revelations that an organization that had contracted with the 
State Office of Homeland Security was collecting intelligence 
on lawful citizen groups, including opponents of natural gas 
drilling.
    Now, I recognize this was not a fusion center case, and it 
was a violation at the State level, but privacy is still 
nonetheless a critical issue. We have spent a lot of time 
working on the importance of protecting that with the Federal 
agencies, but appreciate that, to the average person, 
government is government, and activities by local departments 
affiliated with homeland security that are conducting 
surveillance and information and intelligence gathering, what 
are they doing with that material and product? How is it being 
protected against misuse or abuse?
    I think the last issue, of course, is the budgets. As we 
have said, we are living in a time of budget constraints. The 
reality is, it is likely to continue. We are all being asked to 
do more with less, and I hear--look forward to hearing from 
today's witnesses on the important issues about how that may 
affect their mission and how they think they can move forward, 
if, in fact, we are going to be looking, notwithstanding all 
the advocacy we will do to fund as fully as we can, but the 
reality that there could be less support.
    So at this point in time, the Chairman now recognizes the 
Ranking Minority Member of the subcommittee, the gentleman from 
New York, Mr. Higgins, for any statements he may have.
    Mr. Higgins. Thank you, Mr. Chairman, my friend and the 
gentleman from Pennsylvania, for his welcome. I look forward to 
working with him.
    I would also like to thank the Chairman for holding this 
important hearing today and want to thank the witnesses for 
their attendance and their testimony. Information sharing is an 
integral part to our Nation's security. An environment in which 
information is shared is where better decisions can be made and 
ultimately in which people are safer.
    This message is not new. It is something that has been on 
our radar for the past 10 years. It is also something that the 
Federal Government has been working to get right. Since 
September 11, the Federal Government has developed many 
initiatives expanding Federal efforts at information gathering 
and sharing with State and local partners. We now have 
information-sharing partnerships that we did not have on 
September 12, 2001, such as fusion centers and the National 
Joint Terrorism Task Force, which based on my experience has 
been highly, highly effective.
    Further, this administration has indicated that effective 
information sharing throughout the Government is a key 
priority. Over the past 3 years, three Executive Orders have 
been issued to improve information sharing.
    Although we have made improvements with information 
sharing, we must not become complacent. We need specificity. We 
need the Government to have a clear-cut definition of the 
programs and activities that are most important to the homeland 
security mission.
    Further, in this budgetary environment, we do not want to 
short-change security. However, as we extend financial and 
human resources to these programs, their value should be 
defined. Additionally, information sharing should have a 
tailored approach. State and local officers must get the 
assistance they need to be most effective in protecting the 
people in their own communities. That means that when 
intelligence officials are deployed to jurisdictions that they 
have an interest in knowing the jurisdiction and that 
jurisdiction's sensitivities.
    That means that we must be cognizant of the entire threat. 
The threat that exists in western New York may not be the same 
as those that exist along the Southern Border. Also, we need 
for the agencies as a whole, especially Department of Homeland 
Security, to be willing participants and provide the necessary 
support to assist State and local efforts. Unfortunately, in 
November 2011, the Department of Homeland Security Office of 
Inspector General found that there were improvements needed in 
this area. I look forward to hearing the Department of Homeland 
Security, what they have done to rectify this situation since 
the release of that report.
    Further, as we partner with jurisdictions, we must remember 
that State and local officers know their jurisdictions best. 
They also need to have a voice and should be heard. This is not 
a new message, but for some reason one that we must continually 
reinforce.
    These are the challenges that we are here to explore today. 
I hope that each of our witnesses will be forthcoming in your 
assessments of these and other challenges that lie ahead for 
the information-sharing environment. Only by helping us fully 
understand the challenges ahead can we hope to work together to 
craft solutions to these problems.
    I welcome all of you here, and I look forward to your 
testimony. I yield back.
    Mr. Meehan. Thank you, Mr. Higgins.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    Now, we are pleased to have a distinguished panel of 
witnesses before us today on this important topic. The 
Honorable Scott McAllister is the deputy under secretary for 
State and Local Programs for the Office of Intelligence and 
Analysis at the Department of Homeland Security. In this role, 
he manages the office responsible for Departmental and 
interagency support to the National network of fusion centers.
    Before coming to the Department, Mr. McAllister was the 
chief of investigation of the Fort Myers Regional Operations 
Center for the Florida Department of Law Enforcement. Mr. 
McAllister also served as the State of Florida's deputy 
homeland security adviser from 2007 to 2010. Prior to serving 
as deputy homeland security adviser, Mr. McAllister previously 
served as a special agent supervisor in charge of domestic 
security and protective operations at the Miami division of the 
Florida Department of Law Enforcement.
    Mr. McAllister brings more than 36 years of State and local 
law enforcement expertise, including roles as a major crimes 
detective, SWAT operator, and joint terrorism task force 
agents. More importantly, as I understand, before he found the 
sunny beaches of Florida, he came from southeastern 
Pennsylvania, so he has got good roots.
    The honorable Louis Quijas was appointed to the Department 
of Homeland Security as assistant secretary for the Office for 
State and Local Law Enforcement in July 2011. In this position, 
Mr. Quijas serves as the principal Department-wide liaison with 
State, local, and Tribal law enforcement, ensuring that both 
relevant information and policy development are coordinated 
with our non-Federal law enforcement partners.
    Prior to coming to the Department, Mr. Quijas served as the 
president of Datong Electronics North American operations. 
Before entering the private sector, Mr. Quijas had a 36-year 
career in Federal and local law enforcement. In 2002, while in 
the FBI, Mr. Quijas was appointed FBI assistant director for 
the Office of Law Enforcement Coordination. Prior to his 
appointment in the FBI, Mr. Quijas was the chief of police for 
the city of High Point, which I recollect from my days as a 
prosecutor had a very aggressive, was it--an anti-gang and 
anti-gun program that was Nationally recognized. So 
congratulations. He accepted the position of chief of police 
upon his retirement from Kansas City, Missouri, Police 
Department after 25 years of service.
    Thank you, Mr. Quijas, for being here.
    Mr. Eric Velez-Villar is the assistant director for the 
Directorate of Intelligence at the Federal Bureau of 
Investigation. Prior to being named to this position by 
Director Mueller in 2012, Mr. Velez was the deputy assistant 
director for the Directorate of Intelligence's intelligence 
operations branch. That must be tough to get on a business 
card.
    Mr. Velez started his 27-year career with the Federal 
Bureau of Investigation in 1985 as a computer specialist. Early 
on in his career, he worked organized crime, drug, and public 
corruption matters. In 2012, he served as the organized crime 
and drug supervisor of the Los Angeles division, until he was 
re-assigned to supervise Orange County's Joint Terrorism Task 
Force.
    In 2004, he was promoted to assistant special agent in 
charge of the Los Angeles field office counterterrorism 
program. In 2006, he was appointed as the deputy director of 
terrorist training center. In 2008, Director Mueller appointed 
Mr. Velez as the first special agent in charge of the newly 
created Intelligence Division of the Los Angeles field office, 
where he remained until being appointed to the Directorate of 
Intelligence.
    Last, from the great State of Pennsylvania, the assistant 
chief Maurita Bryant is assistant chief for the operations 
branch for the Pittsburgh Bureau of Police, where she oversees 
all uniform and civilian personnel in the six police zones in 
the special deployment division. Ms. Bryant is a 34-year 
veteran of the Pittsburgh Bureau of Police, getting her start 
in 1977. She worked as a plain-clothes officer. She was a 
sergeant in the mobile crime unit, and she rose to commander of 
Zone 5 Station.
    Prior to her promotion to assistant chief in October 2006, 
Ms. Bryant served in various capacities, including the 
commander for narcotic, vice, and firearms trafficking and 
commander in charge of major crimes and commander of the sex 
assault and family crisis division. She is a 2004 graduate of 
the 218th session of the FBI National Academy in Quantico and a 
2005 graduate from the Police Executive Research Forum's Senior 
Management Institute for Police in Boston, Massachusetts. She 
is a 2010 graduate of the 26th Class of Leadership, Pittsburgh, 
and an instructor for the Penn State Justice and Safety 
Institute.
    Thank you for being here, Ms. Bryant.
    So for all panelists, we will give you the opportunity to 
make your opening statements. We will appreciate the 
recognition that we have been grateful for your submitted 
written testimony, and I know you will do your best to try to 
summarize your testimony and give us the essence as best you 
can within what we give as the 5-minute parameters.
    So let me begin by recognizing Deputy Under Secretary 
McAllister for your testimony.

 STATEMENT OF SCOTT MC ALLISTER, DEPUTY UNDER SECRETARY, STATE 
AND LOCAL PROGRAM OFFICE, OFFICE OF INTELLIGENCE AND ANALYSIS, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. McAllister. Chairman Meehan, Ranking Member Higgins, 
and Members of the committee, I appreciate the opportunity to 
testify today regarding the Department of Homeland Security's 
efforts to keep our Nation safe from evolving threats through a 
robust information sharing with our State, local, Tribal, 
territorial, and private-sector homeland security partners.
    As you know, I&A is a member of the intelligence community 
and fills a unique role as the critical bridge between the 
intelligence community and our State and local partners. I can 
personally attest to the vital importance of that bridge.
    Prior to joining the Department of Homeland Security in 
December 2011, I enjoyed a 36-year career with State and local 
law enforcement, which included investigating terrorism cases 
on Joint Terrorism Task Force, overseeing a State fusion 
center, and serving as the deputy homeland security adviser for 
the State of Florida.
    The collective progress made by the homeland security 
community to effectively collaborate became readily apparent to 
me during the decade I spent in State law enforcement post-9/
11. Last fall, I jumped at the opportunity to come to DHS to 
build on that shared progress that I had previously been a part 
of at a State and local level.
    You have my formal written testimony, so I would like to 
use my remaining time to discuss what DHS is doing to build 
this momentum. The terrorist threat to the United States has 
dramatically evolved since the 9/11 attacks. Today we face a 
threat environment where violent extremism is not defined or 
contained by international borders. This means we have to 
address threats that are home-grown, as well as those that 
originate abroad.
    The threat of home-grown violent extremists fundamentally 
changed who was best positioned to spot, investigate, and 
respond to terrorist activity. State and local law enforcement 
officers are now the ones most likely to be in a position to 
detect the early signs of terrorist activity. This fact has 
profound implications on how we go about securing the homeland.
    The role of State and local partners in counterterrorism 
efforts has never been more valuable. As a former Governor, 
Secretary Napolitano understands the critical role State and 
local governments play in protecting our communities. As the 
Secretary has stated many times, homeland security begins with 
hometown security.
    DHS's efforts to facilitate the flow of information between 
and among homeland security partners at all levels of 
government is made up of several mutually reinforcing elements. 
First, we have fundamentally changed the way the Department 
provides information to law enforcement agencies by improving 
the production and dissemination of classified and unclassified 
information regarding threats to the homeland. DHS has 
developed tailored products, including joint intelligence 
bulletins, to meet the needs of the State and local partners.
    Last April, DHS also implemented the new National Terrorism 
Advisory System. This new system is designed to provide timely, 
detailed information to the public and private sectors about 
credible terrorist threats and recommended security measures.
    Second, our approach includes maturing grassroots 
intelligence and analytical capabilities within the State and 
local environment through National network of fusion centers. 
We are looking to ensure that every fusion center has core 
capabilities that include the ability to analyze local 
implications to National intelligence, thus enabling local 
officials to be--better protect their communities.
    We have also supported the development of fusion centers to 
grants, training, technical assistance, and deployment of 
Federal personnel. We currently have DHS intelligence officers 
deployed to 64 fusion centers, and 63 centers now can receive 
classified threat information through the Homeland Secure Data 
Network.
    Fusion centers are a force multiplier to inform and 
contribute investigation initiating conducted by the FBI Joint 
Terrorism Task Forces. Fusion centers and JTTFs have distinct, 
but complementary roles in securing the homeland, and I would 
like to thank Eric Velez for collaborating with us to 
strengthen this relationship and to ensure consistent messaging 
between fusion centers and the JTTF.
    Third, DHS is partnering with the Department of Justice on 
a Nation-wide Suspicious Activity Reporting Initiative, which 
establishes standard processes to identify, report, and share 
suspicious activity. Together, we have transformed how we train 
front-line officers to recognize and report suspicious 
activities.
    Finally, we recognize that an engaged and vigilant public 
is vital to our efforts to protect our communities from 
terrorism. Through the Nation-wide expansion of ``If You See 
Something, Say Something'' campaign, we emphasize the 
importance of reporting suspicious activity to the proper law 
enforcement partners.
    In conclusion, I look forward to continuing to further 
develop the distributed homeland security architecture that we 
have built since 9/11, in particular over the past 3 years, all 
while protecting the privacy, civil rights, and civil liberties 
of all Americans.
    Now, I would like to close by thanking the committee for 
the opportunity to be here today, and more than happy to answer 
any questions.
    [The joint statement of Mr. McAllister and Mr. Quijas 
follows:]
    Joint Prepared Statement of Scott McAllister and Louis F. Quijas
                           February 28, 2012
    Thank you, Chairman Meehan, Ranking Member Higgins, and Members of 
the committee. We appreciate the opportunity to testify today on the 
Department of Homeland Security's (DHS) efforts to keep our Nation safe 
from evolving threats through information-sharing activities with our 
State and local partners.
    Over the past 3 years, one of the Department's top priorities has 
been to establish a domestic information-sharing capability that 
facilitates our efforts to fully integrate State, local, Tribal, and 
territorial (SLTT) officials into our terrorism prevention capacity.
    DHS is working with the Department of Justice (DOJ), the Federal 
Bureau of Investigations (FBI), and National Counterterrorism Center 
(NCTC), as well as with our SLTT partners on four key priorities:
  <bullet> Improve production and dissemination of classified and 
        unclassified information regarding threats to the homeland;
  <bullet> Establish grass-roots analytic capabilities through the 
        development of a National network of State and major urban area 
        fusion centers so that National intelligence can be 
        incorporated into a local context;
  <bullet> Standardize how we train SLTT law enforcement to recognize 
        indicators of terrorism-related criminal activity and report 
        those suspicious activity reports (SARs) to Joint Terrorism 
        Task Forces (JTTFs) for investigation and fusion centers for 
        analysis; and
  <bullet> Increase community awareness and encourage the public to 
        report suspicious activity to law enforcement.
    As part of these efforts, DHS, including the Office of Civil Rights 
and Civil Liberties and Office of Privacy, works to ensure appropriate 
civil liberty and privacy protections are integrated into all of our 
information-sharing and terrorism prevention activities.
                      production and dissemination
  <bullet> The Department has developed tailored product lines to meet 
        the needs of our SLTT partners, and expanded our dissemination 
        to include the diverse range of homeland security stakeholders 
        (law enforcement, emergency management, public health, and 
        private sector). Specifically, I&A produces a variety of 
        timely, tailored, and actionable intelligence products for SLTT 
        partners, to include: Daily Intelligence Highlights (DIH), Roll 
        Call Releases (RCR), Homeland Security Notes (HSN), Homeland 
        Security Reference Aids (HSRA), Homeland Security Assessments 
        (HSA), Homeland Security Monitors (HSM) Intelligence 
        Notifications and Homeland Security State and Local 
        Intelligence Community of Interest (HS-SLIC) messages, and 
        Suspicious Activity Reports (SAR) trend analysis. Additionally, 
        I&A coordinates the development of tearline reporting with the 
        larger intelligence community (IC) during times of imminent 
        threat to ensure that SLTT partners remain fully apprised of 
        the evolving threat environment in the Homeland. I&A also works 
        closely with the FBI on the development of Joint Information 
        Bulletins (JIB), both classified and unclassified, that are 
        disseminated to SLTT and law enforcement officials, which 
        provide situational awareness and information on potential 
        threats.
  <bullet> I&A uses feedback provided by State and local customers to 
        adjust its analytic and current intelligence products to better 
        meet their needs. As a result of feedback received over the 
        last 2 years, I&A initiated new products including the 
        Snapshot, which identifies tactics, techniques, and procedures 
        of an emerging event which may have Homeland implications, and 
        provides potential indicators and recommended preventive and 
        protective actions. Analysis of survey data provided by SLTT 
        partners on I&A products reveals that 98 percent of SLTT 
        customers rated the relevance of I&A products they reviewed as 
        Important to Critical. Likewise, 96 percent rated their 
        satisfaction with the usefulness, timeliness, and 
        responsiveness of I&A products as Somewhat to Very Satisfied.
    The Department has increased its coordination and collaboration 
with DOJ and the FBI through joint production and dissemination of 
intelligence and information to our SLTT and law enforcement partners. 
For example:
  <bullet> DHS and FBI provide joint Secure Video Teleconferences 
        (SVTC) to SLTT and law enforcement officials, as well as the 
        private sector to provide intelligence information regarding 
        emerging threats. Specifically, we provided joint SVTC to 
        stakeholders during the 10th Anniversary of 9/11 and leading up 
        to the 2011 holiday season;
  <bullet> The Department's National Terrorism Advisory System, or 
        NTAS, replaces the color-coded Homeland Security Advisory 
        System (HSAS). This new system more effectively communicates 
        information about terrorist threats by providing timely, 
        detailed information to SLTT and law enforcement partners.
                             fusion centers
    As part of the Implementing Recommendations of the 9/11 Commission 
Act of 2007, DHS was charged with leading the effort to support and 
coordinate with a network of State or local-led information sharing and 
analytic centers in States and major cities throughout the country. 
Through I&A's State and Local Program Office (SLPO), DHS has included 
these fusion centers in the intelligence cycle by building their 
capabilities to receive, analyze, disseminate, and gather information 
at the local level. I&A facilitates unified Federal support to fusion 
centers that yields the highest possible degree of two-way information 
sharing. This not only helps build a robust National intelligence 
infrastructure, it also simultaneously enhances State and local law 
enforcement capabilities. The result is an increasingly robust, dynamic 
flow of information with the States that results in joint intelligence 
products, reporting of information of intelligence value, and building 
of an analytic and information-sharing capacity. DHS has made 
considerable progress in building fusion centers' information-sharing 
capabilities, including the following:
  <bullet> There are now 93 I&A intelligence personnel deployed in 
        support of fusion centers throughout the country. These 
        intelligence personnel coordinate with DHS Component 
        intelligence and law enforcement personnel who support fusion 
        centers in various capacities. For example, I&A Intelligence 
        Officers (IOs) coordinate with TSA field IOs to understand 
        threats to the transportation sector and collaborate on 
        intelligence products
  <bullet> Homeland Secure Data Network (HSDN) systems are deployed to 
        fusion centers to permit access to Secret information and 
        intelligence at the local level. I&A has developed and deployed 
        a collaboration tool on HSDN to connect analysts from across 
        the Homeland Security Enterprise to focus on counterterrorism-
        related issues.
  <bullet> Through I&A-led training, non-Federal analysts at fusion 
        centers are rapidly increasing their analytic capacity and 
        producing products routinely exchanged throughout fusion 
        centers that fuse intelligence and information from the 
        intelligence community with local/regional context.
  <bullet> DHS has the first statutorily required privacy office of any 
        Federal agency, and the Department builds privacy and civil 
        rights and civil liberties protections into its operations, 
        policies, and programs. All fusion centers have appointed a 
        privacy officer and have a written privacy policy that conforms 
        to the requirements of the Information Sharing Environment 
        established under the Intelligence Reform and Terrorism 
        Prevention Act. In addition, State and local personnel 
        participate in regional workshops and on-site privacy and civil 
        liberties training.
    Almost every process or system in the fusion centers is designed to 
facilitate two-way information sharing. For example, I&A has deployed 
reports officers who work with State and local law enforcement to 
gather and report information of intelligence value to the Department 
and the intelligence community that has not traditionally contributed 
to intelligence community analysis. In fiscal year 2011, I&A reports 
officers submitted 332 Intelligence Information Reports based on 
information provided by State and local partners.
                                training
    The Nationwide Suspicious Activity Reporting (SAR) Initiative 
(NSI), which is led by the Department of Justice, responds to the 
mandate to establish a ``unified process for reporting, tracking, and 
accessing [SARs]'' in a manner that rigorously protects the privacy and 
civil liberties of Americans, as called for in the National Strategy 
for Information Sharing. The NSI establishes standardized processes and 
policies for gathering, documenting, processing, analyzing, and sharing 
information about terrorism-related suspicious activities. The NSI 
allows State, local, Tribal, territorial, and Federal law enforcement 
organizations, as well as private sector entities, to share information 
about suspicious activity that is potentially terrorism-related.
    This initiative is training all law enforcement across the Nation 
to recognize behaviors and indicators related to terrorism, crime, and 
other threats; standardize how those observations are documented and 
analyzed; and ensure the sharing of those reports with the Federal 
Bureau of Investigation for further investigation. This training 
emphasizes privacy, civil rights, and civil liberties considerations in 
assessing and documenting observed suspicious activities. Beginning in 
December 2010, the NSI has trained over 196,000 front-line officers, 
with the goal that virtually all front-line law enforcement personnel 
in the United States--hundreds of thousands of officers--will 
eventually receive the training.
    DHS has also worked closely with SLTT law enforcement and community 
organizations to support the administration's countering violent 
extremism (CVE) approach as outlined in Empowering Local Partners to 
Prevent Violent Extremism in the United States. Likewise, the 
administration's Strategic Implementation Plan for Empowering Local 
Partners to Prevent Violent Extremism in the United States (SIP) was 
heavily informed by State and local law enforcement and underscores the 
strength of community-based problem solving, local partnerships, and 
community-oriented policing.
    DHS, in partnership with the Los Angeles Police Department and the 
National Consortium for Advanced Policing, is in the process of 
developing a CVE training curriculum for State, local, and Tribal law 
enforcement. This CVE curriculum was test-piloted in San Diego in 
January 2012 and the Major Cities Chiefs Association has passed a 
motion to implement this curriculum across the country once it is 
finalized. The curriculum includes an analysis of the common behaviors 
and indicators associated with violent extremism and guidance and best 
practices for community partnerships, to include an understanding of 
the privacy, civil rights, and civil liberties considerations in this 
arena. This curriculum is a key example of the Department's efforts to 
partner with State and locals on countering violent extremism. The 
Federal Law Enforcement Training Center (FLETC) is also currently 
working to develop a CVE curriculum that will be integrated into its 
Federal law enforcement training programs.
    In addition to the Department's training efforts, DHS and FBI field 
personnel, on a regular basis, provide briefings and workshops to State 
and local jurisdictions to help them to prepare for, protect against, 
and respond to coordinated terrorist attacks against multiple targets. 
For example, DHS has worked closely with NCTC and FBI to present the 
Joint Counterterrorism Awareness Workshop Series (JCTAWS) to cities 
Nation-wide. This initiative is designed to improve the ability of 
local jurisdictions to prepare for, protect against, and respond to 
potential coordinated terrorist attacks against multiple targets. The 
JCTAWS workshops, held in cities across the United States, include 
Federal, State, and local participants from across the law enforcement, 
emergency response, and private sector communities.
                ``if you see something, say something''
    We continue to coordinate with the NSI on the rollout of the ``If 
You See Something, Say Something<SUP>TM</SUP>'' public awareness 
campaign. Originally used by the New York Metropolitan Transportation 
Authority, DHS received permission to use the MTA-trademarked phrase 
and to expand ``If You See Something, Say Something<SUP>TM</SUP>'' to a 
Nation-wide effort to increase public awareness and encourage the 
reporting of suspicious activity to local law enforcement authorities. 
This campaign is being expanded in locations that are part of the NSI 
in order to ensure appropriate training, safeguards, and reporting 
mechanisms are in place prior to any launch. Engaging the public and 
capturing SARs is increasingly important given the on-going threat of 
homegrown violent extremists. In addition, DHS and the FBI have co-
branded briefing and educational materials provided to stakeholders and 
have announced major partnerships with the State, local, and private 
sector.
          additional departmental information-sharing efforts
    Other Departmental information-sharing initiatives include outreach 
to elected and appointed officials including Governors, homeland 
security advisors (HSA), mayors, and Tribal officials and State and 
local law enforcement entities.
    DHS's Office of Intergovernmental Affairs (IGA) leads interaction 
with elected and appointed officials and works closely with I&A and the 
Office of State and Local Law Enforcement (OSLLE) to ensure they are 
kept abreast of threat information. Interactions between HSAs and local 
officials and I&A Intelligence Officers in the field is routine, 
providing State leadership with up-to-date threat information on a 
regular basis at multiple classification levels. DHS also has expanded 
its work with Tribal governments and law enforcement entities across 
the Nation. DHS has Tribal liaisons in every operational component to 
work directly with Tribal communities. This continuous collaboration is 
evidence of the interagency determination to ensure State leadership is 
an integral part of the homeland security enterprise.
    In addition, the DHS' OSLLE, working in a coordinated approach with 
IGA, helps ensure the broadest possible reach to the Nation's law 
enforcement community. The Office is staffed by a combination of 
second-career law enforcement professionals and current DHS Component 
personnel that are in law enforcement career series (GS-1800) who build 
and maintain relationships with non-Federal law enforcement partners.
    The day-to-day interactions between fusion centers and the non-
Federal law enforcement community vary throughout the Nation. In order 
to address the diverse nature of these relationships, the OSLLE 
utilizes its role as the DHS principal liaison with non-Federal law 
enforcement partners to ensure that those law enforcement agencies that 
are not integrated with a fusion center receive the same level of 
information as their fusion center counterparts. The OSLLE works to 
ensure that these law enforcement agencies receive not only threat and 
response information, but also information regarding National and 
Departmental initiatives and programs. To better serve our partners and 
ensure that they receive the latest information on Department 
activities, the OSLLE has formed an intra-agency group, the DHS 
Component Law Enforcement Outreach Committee (CLEOC), comprised of DHS 
personnel whose duties include outreach to our non-Federal law 
enforcement partners.
    Furthermore, the Office of Operations Coordination and Planning 
(OPS) utilize the expertise and viewpoint of active law enforcement in 
its mission to maintain situational awareness. DHS OPS has sworn law 
enforcement personnel from across the Nation within the National 
Operations Center (NOC) who are included at every level of the watch 
functions, including reviewing the information sent from OPS to its 
stakeholders and partners. In particular, the law enforcement personnel 
in the NOC are active participants in the dissemination of products 
from I&A's Intelligence Watch, which is co-located with OPS in the NOC.
                               conclusion
    While America is stronger and more resilient as a result of these 
efforts to strengthen the Homeland Security Enterprise, threats from 
terrorism persist and continue to evolve. Today's threats do not come 
from any one individual or group. They may originate in distant lands 
or local neighborhoods. They may be as simple as a homemade bomb or as 
sophisticated as a biological threat or coordinated cyber attack.
    The Federal Government realizes that State, local, Tribal, and 
territorial law enforcement, as well as citizens, businesses, and 
communities are on the front lines of detection and prevention. 
Protecting the Nation is a shared responsibility and everyone can 
contribute by staying informed and aware of the threats the Nation 
faces.
    The Federal Government benefits from a robust information-sharing 
infrastructure with its SLTT partners. SLTT partners similarly benefit 
from the collaborative environment established within the fusion 
centers through their analysis of the National threat picture and the 
provision of products that are developed and tailored using local 
context to support the implementation of information-driven community-
based solutions by local officials. SLTT partners also benefit from the 
National Network of Fusion Centers' support of the implementation of 
the NSI and fusion center participation in the ``If You See Something, 
Say Something<SUP>TM</SUP>'' public awareness campaign. These important 
initiatives, combined with other coordinated outreach efforts of the 
Department, underscore the concept that homeland security begins with 
hometown security, where an alert public plays a critical role in 
keeping our Nation safe.
    DHS thanks this subcommittee for your continued support of our 
efforts, and your invaluable guidance and oversight as we continue to 
work to create a stronger and safer country. We look forward to any 
questions you may have.

    Mr. Meehan. Thank you, Mr. McAllister.
    Now, Mr. Quijas, for your testimony, please.

  STATEMENT OF LOUIS QUIJAS, ASSISTANT SECRETARY, OFFICE FOR 
STATE AND LOCAL LAW ENFORCEMENT, DEPARMENT OF HOMELAND SECURITY

    Mr. Quijas. Good morning, Mr. Meehan, Ranking Member 
Higgins, and Members of the subcommittee. I appreciate the 
opportunity to testify before you today on the Department of 
Homeland Security's efforts regarding information sharing with 
our State, local, and Tribal law enforcement partners.
    As mentioned at the beginning of this hearing, I have had 
the pleasure and honor of serving 36 years in Federal and local 
law enforcement. It is this experience that I draw on in my 
current position as assistant secretary of the Office for State 
and Local Law Enforcement.
    In response to the recommendation of the 9/11 Commission, 
Congress created my office and directed that the assistant 
secretary lead the coordination of the Department-wide policy 
relating to State, local, and Tribal law enforcement's role in 
preventing acts of terrorism and to serve as a liaison between 
law enforcement agencies across the country and the Department.
    As the Department's principal liaison with our law 
enforcement partners, my office is uniquely positioned to 
assist other DHS components connect with this very important 
customer base. That unique relationship exemplifies the need 
for a strong, independent office with a direct tie to the 
Office of the Secretary of Homeland Security. By moving forward 
with our plans to move my office as a direct report to the 
Secretary in fiscal year 2012, we will be better-positioned and 
aligned with the organizational structure of existing outreach 
and offices within the Department. It will also improve our 
ability to provide the Secretary with situational awareness and 
real-time information on issues, concerns, and requirements of 
our law enforcement partners.
    The realignment will improve the office's visibility, 
traction, and standing within the Department, allowing us to 
better serve the 800,000 State, local, and Tribal law 
enforcement customers, the 18,000 agencies they represent, and 
the hundreds of organizations and associations that champion 
their cause.
    One of the Department's top priorities has been to 
establish a domestic information-sharing capability that 
facilitates our efforts to fully integrate our law enforcement 
partners and to the Department's terrorism prevention capacity. 
In coordination with the Office of Intelligence and Analysis, 
my office utilizes its outreach capabilities to help facilitate 
information sharing with our mutual customers.
    To better serve our partners and to ensure that they 
receive the latest information on Departmental activities and 
initiatives, my office formed the DHS Component Law Enforcement 
Outreach Group, an interagency coordination body. This group is 
comprised of members from across the Department that have a 
nexus of responsibility for outreach to our law enforcement 
partners.
    My office is committed to proactively identify and then 
responding to challenges facing the law enforcement community. 
For example, in the recent economic--current economic downturn, 
law enforcement agencies are finding it difficult to maintain 
routine services and incident response. As a former police 
chief, I know first-hand that training is usually the first 
casualty of budget cuts.
    In an effort to assist our partners in identifying options 
to meet their current and future training requirements, my 
office has a range for the leadership of the major law 
enforcement associations to visit and tour the DHS Federal Law 
Enforcement Training Center, or FLETC, in Glynco, Georgia. This 
visit will allow Connie Patrick, the director of FLETC, and her 
team to brief the attendees on the resources, capabilities, and 
training programs this state-of-the-art training facility has 
to offer. The visit will also provide the FLETC team an 
opportunity to help identify training efficiencies and areas 
for future collaboration.
    The Federal Government benefits from a robust information-
sharing infrastructure with State, local, and Tribal law 
enforcement communities. Conversely, our partners benefit from 
having my office as their advocate and voice within DHS to help 
ensure that their issues, concerns, and challenges are 
understood and given full consideration during the budget, 
grant, and policy development processes. I believe that was the 
intent of Congress when it created my office and named it the 
Office for State and Local Law Enforcement.
    As an active police chief on the morning of September 11, 
2001, and having had the unique experience of being a part of 
the FBI's and DHS's outreach efforts to the law enforcement 
community post-9/11, I can say without hesitation that the 
level of cooperation and information sharing with these very 
valuable partners has never been better.
    It also reflects, as Scott said earlier, our belief that 
homeland security truly begins with hometown security. On 
behalf of the Secretary, I would like to thank this 
subcommittee for its support as we continue to work together to 
create a safe, secure, and resilient Nation.
    I look forward to any questions you may have, and thank 
you.
    Mr. Meehan. Thank you, Mr. Quijas.
    I would like to recognize now Assistant Director Velez-
Villar for your testimony, sir.

  STATEMENT OF ERIC VELEZ-VILLAR, ASSISTANT DIRECTOR, FEDERAL 
         BUREAU OF INVESTIGATION, DEPARTMENT OF JUSTICE

    Mr. Velez-Villar. Good morning, Mr. Chairman, Ranking 
Member Higgins, and Members of the committee.
    I am Special Agent Eric Velez, and I am the assistant 
director for the FBI's Directorate of Intelligence. I have 
submitted a written statement for the record to the committee, 
so I will keep my comments brief, and I look forward to 
answering any questions you may have.
    First, I would like to start off by saying that it is an 
honor to be able to speak before such a distinguished 
committee. On behalf of Director Mueller, I would like to thank 
you for the opportunity.
    The FBI recognizes that with evolving National security 
threats, it is extremely important that we adapt and position 
ourselves to counter such threats before they do harm. We must 
do this, always keeping in mind the rights and civil liberties 
of our citizens. The most effective tool we have at our 
disposal is each other. By working collaboratively and sharing 
what we know, together we become a formidable force to our 
enemies.
    As threats are increasingly conceived and carried out 
entirely within our borders, our reliance upon our State, 
local, and Tribal partners has never been more critical. It is 
almost certain that before an FBI agent comes face-to-face with 
a threat actor, a State, local or Tribal police officer or 
deputy will most likely encounter them first. They must know 
what we know in order to do their jobs.
    The fusion centers have become a strong and committed 
partner of ours. Our special agents in charge, or SACs, serve 
on the various governance boards or executive committees. We 
have assigned analysts and agents to the majority of the 
centers and are committed to doing everything we can to help 
them succeed.
    The way we see it, anyone committed to protecting our 
communities is a partner of ours. As a lead agency for domestic 
intelligence, we welcome everyone willing to assist to be part 
of the team. We see these centers as a force multiplier. They 
assist our field intelligence groups, or FIGs, in communicating 
our intelligence to our State, local, and Tribal partners. They 
keep their eyes open for any indicators of potential threats 
and relay that information to our Joint Terrorism Task Forces, 
or JTTFs. They assist in our intelligence analysis by adding a 
State and local context to that analysis.
    Some of the centers are collocated with our FBI field 
office, and we find it to be an optimal operating environment, 
which allows for seamless integration and collaboration.
    In summary, I would just like to say that information 
sharing and our partnership with State, local, Tribal agencies 
is nothing new to the FBI. We have been doing it since the 
beginning of our organization. It is engrained in the way we do 
business.
    9/11 was a stark reminder of how important it is for us to 
share information. We have worked very hard to find more 
effective and efficient ways to share intelligence with our 
partners. I look forward to answering any questions you may 
have, and thank you for the opportunity.
    [The statement of Mr. Velez-Villar follows:]
                Prepared Statement of Eric Velez-Villar
                           February 28, 2012
    Good morning, Chairman Meehan, Ranking Member Speier, and Members 
of the subcommittee. It is my privilege and pleasure to address you 
today as the Assistant Director of the Federal Bureau of 
Investigation's Directorate of Intelligence, and to demonstrate our 
organization's commitment to the timely sharing of intelligence and 
information related to United States National security.
    The constantly-evolving National security threat requires an 
adaptable information-sharing strategy. In the period immediately 
following 9/11, the FBI focused on threats originating outside the 
United States, but we now also must direct our resources to address the 
threat from individuals residing in our country who demonstrate violent 
extremist actions on behalf of either a foreign-based or domestic 
ideology. The FBI will continue to provide relevance and context on 
foreign threat information; however, we also recognize that the violent 
extremism threat may be first identified within our communities by 
State, local, or Tribal law enforcement. As a result, we have taken 
numerous proactive steps in the past year to develop a more robust 
information-sharing capacity with all Federal, State, local, and Tribal 
law enforcement partners.
    Given the diverse threats we face, it is essential that law 
enforcement entities work together, making our partnerships with all 
levels of law enforcement that much more invaluable. As the lead agency 
for domestic intelligence collection, as outlined in Executive Order 
12333, the FBI must ensure that we maintain responsibility for all 
investigative activity involving terrorist threats while also sharing 
as much information as possible with our partners. We routinely 
disseminate raw and finished intelligence products to our partners to 
help us achieve this goal, and we focus on three critical tools to 
facilitate information sharing with our partners: Fusion centers, the 
FBI's Field Intelligence Groups (``FIGs''), and the FBI's Joint 
Terrorism Task Forces (``JTTFs'').
    As the analytical counterpart to the fusion centers--sharing a 
similar mission of gathering, analyzing, and disseminating intelligence 
information--FIGs are the focal point for sharing information with 
fusion centers. FIGs ensure all terrorism-related information is passed 
to the FBI's JTTFs. Unlike fusion centers and FIGs, JTTFs conduct 
operations and are focused exclusively on terrorism, with the 
responsibility for operations against and investigations of terrorist 
acts and terrorist threats inside the United States as well as related 
intelligence collection activities inside the United States.
    The FBI has implemented an engagement strategy to enhance our 
relationship with fusion centers and has demonstrated its commitment to 
partnering with other agencies, specifically, the Department of 
Homeland Security (``DHS''), on fusion center initiatives in several 
key ways. To foster better coordination and integration of intelligence 
dissemination, the FBI has directly supported fusion centers by 
assigning approximately 96 FBI personnel to at least 55 of the 77 
fusion centers on a full-time or part-time basis. Of the more than 100 
JTTFs operating throughout the country--comprising more than 4,000 task 
force members from more than 650 Federal, State, and local agencies--16 
are collocated with fusion centers, providing even greater coordination 
and information sharing and enabling FBI and fusion center personnel to 
better understand each other's roles and responsibilities. All 
participants in fusion centers and JTTFs act as equal partners: 
Federal, State, local, and Tribal JTTF participants can access all 
threat information relevant to their area of responsibility, and the 
JTTFs share specific threat information concerning operations and 
investigations with relevant State and local entities.
    Fusion centers maximize our ability to detect, prevent, 
investigate, and respond to criminal and terrorist activity. They 
assist the FBI by providing information made available by the 
combination of knowledge, expertise, and information within local law 
enforcement and homeland security agencies operating throughout the 
Nation, and our participation allows us to provide a National 
perspective on regional threats and trends so we can better inform 
decision makers at all levels. The exchange of intelligence that takes 
place in fusion centers aids other intelligence and law enforcement 
organizations--including the JTTFs--in their investigative operations 
and serves as a critical tool for collaboration at all levels.
    With the DHS, the FBI co-chairs the Fusion Center Sub-Committee of 
the Information Sharing and Access Interagency Policy Committee, a 
group that coordinates Federal support to fusion centers by providing 
guidance and standards to support interconnectivity, thereby ensuring 
information sharing among fusion centers and all levels of government. 
Moreover, the FBI recently hosted a 2-day northeast regional meeting of 
the fusion center directors, and we invited all of the directors to 
participate on their respective JTTF Executive Boards to ensure more 
effective coordination. We have also requested that the Special Agents 
in Charge of each FBI field office participate on their respective 
Fusion Center Advisory Board.
    In addition to its collaboration with Federal, State, local, and 
Tribal law enforcement through its fusion center initiatives, the FBI 
works with its law enforcement partners in many other areas. We have 
partnered with the International Association of Chiefs of Police, DHS, 
and other agencies to establish a unified approach to addressing the 
critical information needs of Federal, State, local, and Tribal law 
enforcement. Concurrence among senior interagency leaders has resulted 
in an unprecedented commitment to unified messaging to the public 
regarding the proper protocols for reporting suspicious activity. This 
message encourages agencies at all levels of Government to encourage 
the use of the ``If You See Something Say Something<SUP>TM</SUP>'' 
campaign to raise public awareness of behavioral indicators of 
terrorism, and to emphasize the importance of reporting suspicious 
activities to proper law enforcement authorities, which will forward 
suspicious activity reports to fusion centers and the FBI's JTTFs for 
follow-up and de-confliction.
    Training materials for law enforcement agencies in several States 
will be rolled out in the coming weeks and months to ensure that line 
officers understand how to identify the suspicious behaviors associated 
with pre-incident terrorism activities, how to document and report 
suspicious activity, and how to ensure the protection of privacy and 
civil liberties when documenting information. This messaging will be 
replicated Nation-wide at all levels of government to educate the 
public and raise awareness.
    Further, the FBI and its partner agencies have renewed their 
commitment to ensuring all information--whether it is reported to a 
fusion center or to a JTTF--is shared with those who need to know. Over 
the past few months, the FBI has worked closely with the Nationwide 
Suspicious Activity Reporting (``SAR'') Initiative's Program Management 
Office to implement technical and business processes that enable two 
systems--the FBI's eGuardian system and the Information Sharing 
Environment's Shared Space systems--to share SARs more quickly and 
efficiently. While they continue to work to improve this 
synchronization, as of December 1, 2011, SARs and other information are 
now pushed from one system to the other more effectively. This has 
ensured that all SARs entered into Shared Space are shared with 
eGuardian. The final goal in linking the two systems is to ensure that 
SARs will automatically pass between them without duplicating users' 
efforts and without changing the Shared Space system, resulting in more 
seamless sharing of information between fusion centers, FIGs, and 
JTTFs.
    I appreciate the opportunity to be here today, and I would be happy 
to answer any of your questions.

    Mr. Meehan. Thank you, Mr. Velez.
    Now we turn to the last member of the panel to present 
testimony, Ms. Bryant.

  STATEMENT OF MAURITA J. BRYANT, ASSISTANT CHIEF, PITTSBURGH 
                        BUREAU OF POLICE

    Chief Bryant. Good morning, Chairman Meehan, Ranking Member 
Higgins, and Members of the subcommittee and distinguished 
panelists.
    As the first national vice president of the National 
Organization of Black Law Enforcement Executives, NOBLE, I am 
here today on behalf of NOBLE, and I thank you for the 
opportunity to allow me to speak on issues related to the 
effectiveness of fusion center operations.
    Overall, fusion centers are moving in the right direction, 
but there are still some disconnects. In today's climate of 
shrinking budgets, manpower shortages, global networks 
supporting foreign and domestic terrorism, organization and 
drug trafficking, all levels of local, State, and Federal law 
enforcement realize we must work together and enter into the 
information-sharing process.
    Most important to law enforcement at all levels is the 
critical operational capabilities that primary and recognized 
fusion centers provide, such as the ability to receive 
classified and unclassified information from Federal partners, 
the ability to assess, analyze, and access the implications of 
local threat information, the ability to disseminate threat 
information to other local, State, Tribal, and territorial law 
enforcement agencies and private-sector entities, the ability 
to gather and share locally-generated information.
    Continued funding to fusion centers will permit these 
entities to advance beyond the policy development associated 
with the critical operating capabilities. This will allow 
centers to enter into a sound implementation phase with 
business practices consistent throughout the National network 
of fusion centers. Some fusion centers across the Nation in 
cities such as Tennessee, Los Angeles, Boston, Chicago, and 
Arizona, to name a few, are more operational than others and 
can be modeled for their performance.
    At the current time, the Pittsburgh Region Fusion Center 
has not been stood up for its full operational capacity. It 
does routinely produce and disseminate to all sectors an open-
source document that is well-received by the appropriate 
personnel. The current and projected projects of the All 
Hazards Fusion Center, per Federal guidance, is specifically 
designed to expand beyond the terrorism nexus.
    Some of the systems in place, such as National Security 
Institute, NSI, and the FBI's eGuardian are designed to 
generate day-to-day information that is--that has a possible 
nexus to terrorism, which is sometimes routed in the 
appropriate law enforcement agency.
    This can be a challenge, depending upon the geographical 
location, personalities, and existing cultural barriers, such 
as sharing information among public safety disciplines. 
Pittsburgh is in the early stages of their fusion's effort and 
project that it can have a substantial impact based on 
experience to date with a limited deployment.
    The biggest issue currently is funding in the out-years. 
Recently, the Pittsburgh Urban Area Securities Initiative has 
been removed from the list of urban areas that will be funded 
in the 2012 budget. Without an active and funded All Hazards 
Fusion Center, Pittsburgh will not be able to fully understand 
the threat, let alone react to prevent, protect, defend, deter, 
and respond to acts of terrorism.
    One of the key capabilities of a fusion center is to have 
access to intelligence and threat information. In order to 
effectively support fusion center priorities, the process for 
direct fusion center funding must be explored.
    Pittsburgh has recently had its threat profile downgraded 
from 27th in the Nation to 33rd, which has cut the funding. 
Pittsburgh maintains that it cannot develop a full 
understanding of the threat without an All Hazards Fusion 
Center, which leaves them in a catch-22 situation.
    I will close now and then leave it open for questions.
    [The statement of Ms. Bryant follows:]
                Prepared Statement of Maurita J. Bryant
                           February 28, 2012
    Chairman Meehan, Ranking Member Higgins, Ranking and Members of the 
committee: I am Maurita J. Bryant, first national vice president of the 
National Organization of Black Law Enforcement Executives. Thank you 
for the opportunity to testify and submit testimony for the record 
regarding intelligence sharing and the importance of information 
gathered in fusion centers to stop and prevent crime. The National 
Organization of Black Law Enforcement Executives, better known as 
NOBLE, was founded in September 1976, during a 3-day symposium to 
address crime in urban low-income areas. The symposium was co-sponsored 
by the Police Foundation and the Law Enforcement Assistance 
Administration (LEAA). The mission of NOBLE is to ensure equity in the 
administration of justice in the provision of public service to all 
communities, and to serve as the conscience of law enforcement by being 
committed to justice by action. NOBLE strives to be recognized as a 
highly competent, public service organization that is at the forefront 
of providing solutions to law enforcement issues and concerns, as well 
as to the ever-changing needs of our communities.
    As the first national vice president, I am here representing a 
membership body of over 2,500 predominantly African American law 
enforcement executives from six regions across the United States and 
abroad. NOBLE has been a leading National voice on hate crimes, 
community policing, racial and religious tolerance, and law enforcement 
accreditation standards as a founding association of the Commission on 
Accreditation for Law Enforcement Agencies (CALEA), along with 
International Association of Chiefs of Police (IACP), Police Executive 
Research Forum (PERF), and the National Sheriffs' Association (NSA).
    As you are aware since 2001, all 50 States and some local 
governments have established fusion centers where homeland security, 
terrorism, and other intelligence information are shared. It should be 
noted that while the Department of Homeland Security (DHS) and 
Department of Justice (DOJ) have been engaged in addressing the 
challenges fusion center officials have identified, we are of the 
opinion that overall fusion centers are moving in the right direction 
but there are some disconnects. In today's climate of shrinking 
budgets, manpower shortages, global networks supporting foreign and 
domestic terrorism, organized crime and drug trafficking; all levels of 
local, State, and Federal law enforcement realize we must enter into 
the information-sharing process. Fusion Centers provide the avenue for 
the exchange of information. While fusion centers initially focused 
their efforts on terrorism-centric matters, we are pleased that they 
have taken on an ``all hazards'' approach and continuous development of 
these capabilities is important. Fusion centers can provide an ideal 
venue and an effective and efficient way to exchange information and 
intelligence to improve the ability to fight crime and terrorism and to 
respond to disasters. State and major urban area fusion centers are 
owned and operated by State and local entities. The Federal Government 
recognizes these designations and has a shared responsibility with 
State and local agencies to support the National network of fusion 
centers. Law enforcement at all levels of government has grown to 
utilize fusion centers to provide expertise and situational awareness 
to inform decision-making for the allocation of valuable resources. 
Approximately 18 months ago DHS came out with a self-assessment process 
and later developed a more structured process that involved internal 
and external fusion center partners. Most important to law enforcement 
at all levels is the critical operational capabilities that primary and 
recognized fusion centers provide, such as:
  <bullet> Ability to receive classified and unclassified information 
        from Federal partners.
  <bullet> Ability to access, analyze, and assess the implications of 
        local threat information.
  <bullet> Ability to disseminate threat information to other local, 
        State, Tribal and territorial law enforcement agencies and 
        private-sector entities.
  <bullet> Ability to gather and share locally generated information.
    Continued funding to fusion centers will permit these entities to 
advance beyond the policy development associated with the critical 
operating capabilities. This will allow them to enter into a sound 
implementation phase with business practices consistent throughout the 
National network of fusion centers. Some fusion centers across the 
Nation in cities such as Tennessee, Los Angeles, Boston, Chicago, and 
Arizona, to name a few, are more operational than others and can be 
modeled for their performance. At the current time the Pittsburgh 
Region Fusion Center has not been stood up to its full operational 
capacity. It does routinely produce and disseminate to all Sectors an 
open-source document that is well-received by the appropriate 
personnel. The current and projected projects of the All Hazards Fusion 
Center per Federal Guidance, is specifically designed to expand beyond 
the terrorism nexus. Some of the systems in place such as, NSI and the 
FBI's eGuardian, are designed to generate ``day-to-day'' information 
that has a possible nexus to terrorism, which is sometimes routed to 
the appropriate Law Enforcement Agency. This can be a challenge 
depending upon the geographical location, personalities and existing 
cultural barriers; such as sharing information among public safety 
disciplines. Pittsburgh is in the early stages of their Fusion effort 
and project that it can have a substantial impact based on experience 
to date with a limited deployment. The biggest issue currently is 
funding in the out-years. Recently the Pittsburgh UASI has been removed 
from the list of Urban Areas that will be funded in the 2012 budget. 
Without an active and funded ``All Hazards Fusion Center'' Pittsburgh 
will not be able to fully understand the threat, let alone react to 
prevent, protect, defend, deter, and respond to acts of terrorism.
    One of the key capabilities of a fusion center is access to 
intelligence and threat information. In order to effectively support 
fusion center priorities the process for direct fusion center funding 
must be explored. Pittsburgh has recently had its threat profile 
downgraded from 27th in the Nation to 33rd which has cut the funding. 
Pittsburgh maintains that it cannot develop a full understanding of the 
threat without an All Hazards Fusion Center, which leaves them in a 
``catch-22'' situation. Another issue that has impacted the success of 
those working hard to develop fusion center capabilities is the Federal 
grant approval process which oftentimes causes significant delays in 
the roll-out. However, DHS has recently removed a number of the 
impediments, which will make it easier to ``fast track'' fusion centers 
and other projects. Unfortunately for Pittsburgh, it will not have the 
funding after 2011 dollars are exhausted. In response to the question, 
does DHS provide sufficient guidance and structure to State and local 
responders and their missions? Depending upon who is asked the 
question, the response would be at times there is far too much guidance 
and structure. In places where fusion centers are more mature they can 
pretty much go on auto pilot with little or no guidance because they 
have processes and relationships in place. Fusion centers that are less 
mature need more structure and guidance. For some that has been the on-
going issue in moving Fusion and other Homeland Security projects 
forward within acceptable time frames based upon the fact that the 
priorities of the fusion center and the State and local environment are 
not always consistent with the priorities promulgated by DHS.
    When asked is there anything more that the Federal Government 
should be doing in order to make this intelligence-sharing process more 
efficient and reliable? A recommendation would be to put in a process 
to qualify larger numbers of people to ensure better dissemination of 
information. The disconnect is that there are not many people in local 
or State law enforcement who have secret, not alone top secret 
clearances, so the classified information is not disseminated. Although 
clearances play a major role, we recognize this issue is under 
revision. Information sharing must be a two-way street, local level 
information is not always communicated because personnel may not think 
it is worth communicating on a National level. This is where education 
and awareness must continue at the State and local level and within the 
fusion center. Any information-sharing process must better determine 
access and minimize exclusivity--there still remains a tendency to 
hoard knowledge. It will be a waste of time for everyone if the 
information (beyond data) available is not being shared.
    Information sharing is vital in law enforcement and it is important 
that appropriate intelligence coupled with analysis is continually 
provided if we are to achieve success in this area. DHS has been 
somewhat effective in getting past the old model of information 
``silos'' that has impaired the ability of local officials to react to 
the ever-changing threat landscape. The capabilities of the various 
fusion centers must continually be evaluated on a holistic basis to 
ensure that across the country information is provided to State and 
local partners so that all gaps in identifying emerging threats to our 
communities are closed. As fusion centers receive intelligence that is 
pertinent, it is critical for that information to be shared in an 
expeditious manner. When information is shared it should be one message 
without circular reporting. Information overload is a casualty that 
comes from receiving the same information coming from multiple sources. 
It should also be recognized that large States such as Texas, 
California, Virginia, and Florida with multiple fusion centers allow 
for a greater population base to be served. One fusion center per State 
does not always answer the needs for the entire State. In looking 
towards the future, it is anticipated that collaboration efforts 
between State and local authorities and Federal agencies will progress 
and jurisdictional boundaries will become less significant over time. 
Information must be as highly mobile as the population in order to 
solve crime and thwart terrorism. While the existence of fusion centers 
has allowed information sharing to increase in a post-9/11 environment 
there is still a tremendous amount of ground to be covered if we are to 
fully realize a positive information-sharing environment at all levels 
of government.

    Mr. Meehan. Thank you, Ms. Bryant. Thanks to each of the 
members of the panel, again, as I said, for your written 
testimony, but also for summarizing the essenc of your key 
points in your verbal testimony.
    So, again, we will allow each of the committee Members the 
5 minutes allotted to each of us to begin our questioning. I 
will now recognize myself for 5 minutes of questioning.
    Let me begin by just a couple of observations and ask the 
panel to be responsive, because I think you spelled out well 
sort of the boundaries of where we were. First, we watched in 
the course of 10 years--and this is the essence of what I am 
asking--we have been 10 years at it. Where are we? What are we 
doing right?
    We have seen a transformation, accurately identified by Mr. 
McAllister, in which we now are looking beyond the threat from 
overseas to the simultaneous reality, in light of what we have 
seen with Hezbollah and others and, you know, acting out 
potentially in Washington, DC, and the concomitant reality of 
homegrown terrorism, that we have got joint issues that we need 
to be looking at, at the same time. It is actually increased 
the challenge before us.
    We have on the National level very sophisticated 
operations, Mr. Velez, throughout the FBI in every field 
office, in which we have stood up Joint Terrorism Task Forces, 
looking in a very disciplined way towards the issue of 
terrorism. We have down on the local level--as Mr. Bryant 
pointed out--fusion centers which are largely State- and local-
oriented.
    We have got a lot of consistency, but a lot of 
inconsistency, and who remembers how they are organized, how 
they are overseen, and the role that they play in interaction. 
That may be a good thing, based on local needs and challenges, 
but in this context, where we have got this changing nature of 
the threat and we are organized in different ways, both 
Federally and locally, is it working? What is going right? What 
is going wrong with regard to fusion centers? What should we be 
doing a better job on? May I just ask the panel to respond to 
those observations and give me your gut sense as to what we 
ought to be doing better?
    Mr. McAllister. Chairman Meehan, if I could address that, 
first of all, let me describe the National network of fusion 
centers. Each Governor is requested to identify a primary 
fusion center for his or her State. In addition to that, there 
are recognized fusion centers. So right now, we have a core 
capability throughout the majority of State and territories in 
the United States as those primary touch points between the 
Federal Government with threat information coming down to a 
State fusion center, and that State fusion center applying a 
localized context to that threat information----
    Mr. Meehan. How does it work with the situation in which--
you coming from the southeast, you appreciate--Philadelphia has 
got a fusion center. Ms. Bryant is in Pittsburgh. There is a 
huge difference geographically with Pittsburgh and 
Philadelphia. Is Pittsburgh tied in? Or are there two separate 
fusion centers?
    Mr. McAllister. Well, I can describe my experience in 
Florida. In Florida, as the deputy homeland security adviser, 
we had our primary State fusion center located in Tallahassee, 
designated by the Governor. Also, there were two other 
recognized fusion centers that sat in urban areas, one in 
Orlando and one in the Miami area.
    What is important to note is that these are owned and 
operated by local entities. They are not owned by the Federal 
Government. In turn, it is incumbent upon that State entity to 
describe an overarching architecture of how information and 
intelligence will be shared within that State. So for my 
personal experience, we developed a program in order for 
information and threat to come down from the Federal Government 
to the State, the State out to our other recognized fusion 
centers and other nodes within that State, and then the reverse 
flow.
    Mr. Meehan. Ms. Bryant, you are from Pittsburgh. How does 
that work, from your perspective, right now?
    Chief Bryant. Well----
    Mr. Meehan. Would you push your button so that we can hear 
you?
    Chief Bryant. As I stated earlier, our fusion center is not 
fully operational. We have the disconnect because--if I was to 
ask the director of our emergency management services, he would 
say that the disconnect is the bureaucracy and the audits, and 
he would give a whole lot of information.
    Mr. Meehan. Federal audits? State audits? Local audits? Who 
is doing that?
    Chief Bryant. State and Federal audits. It has been a 3-
year process for Pittsburgh, but it still hasn't gotten off the 
ground. Then it is the dilemma of, who is going to be in 
charge? Is it going to be emergency management? Or is it going 
to be law enforcement? So we have a lot of issues----
    Mr. Meehan. Is this because you are going into all-hazards?
    Chief Bryant. Yes, because it is all-hazards. For our area, 
we do need all-hazards.
    Mr. Meehan. Okay. Well, that is an issue worth--Mr. Velez 
or Mr. Quijas, if you have anything to add, my time has passed, 
but if you have something quickly to add to either the general 
question or the specific, I would be delighted to hear it.
    Mr. Quijas. I think the critical piece here that as a 
State, we focused on is the involvement of State and locals in 
the fusion centers. Prior to September 11, you would not have 
seen that. The level of engagement, the level of involvement 
and the management at the local level, as Scott said, those are 
locally managed, which I think says a lot about where we have 
come from September 11 and the engagement of our State and 
local partners in basically driving these initiatives. So I 
think there has been a lot of progress in that, and I think the 
fusion centers show that.
    Mr. Meehan. My challenge is one State directing the local 
partnership, a State like Pennsylvania, not unlike many others, 
with two specific urban centers. There may be more. You know, 
how do we make it work in a situation like that?
    Let me just--Mr. Velez, do you have any comment before I 
turn it over to Mr. Higgins for--okay, well, thank you so much.
    At this point in time, let me recognize the Ranking Member, 
Mr. Higgins, for his questions. Thank you.
    Mr. Higgins. Thank you, Mr. Chairman. I appreciate very 
much the characterization of the disjointed way that security 
issues were dealt with prior to 9/11.
    There is a book written by Lawrence Wright called ``The 
Looming Tower.'' The subtitle is ``From Al Qaida to 9/11.'' In 
it, there is a passage where he recounts that an FBI agent, 
when the second plane hit the tower, physically got sick, 
because he realized that between the FBI, the CIA, and local 
law enforcement agencies, they had the intelligence to 
potentially thwart that attack.
    But because these barriers existed between the Federal law 
enforcement agencies, that intelligence wasn't shared freely, 
and thus it was of no use relative to that situation. So I 
appreciate very much, you know, reassuring us that things have 
changed profoundly since, but we can never become complacent. 
You have to be diligent.
    The Chairman had mentioned--and we have had previous 
testimony in this committee--about the potential threat of 
Hezbollah in the Western Hemisphere, including North America. 
Hezbollah is a terrorist organization committed to violent 
jihad. They act as a proxy for Syria, for Venezuela, and for 
Iran. They have a presence in the 20-country region of Latin 
America, and they also have a presence in 15 American cities 
and four major cities in Canada.
    This is a threat that we have been told we shouldn't be too 
worried about it, because their activities, Hezbollah, in North 
America is limited to fundraising activity. Well, to me, that 
is cold comfort. When you look at the effectiveness of the 
fusion centers, are they well-positioned, some 72 of them 
throughout the Nation, are they well-positioned to deal with 
not only the existing threats, but prospective threats, as 
well, from organizations like Hezbollah that act as a--as I 
said, a proxy for people that want to harm us?
    So I ask that generally to the panel.
    Mr. McAllister. If I may, first of all, we are positioned 
in order to address that. It is a complementary, rather than 
competitive type of environment. Working jointly with the FBI, 
Department of Homeland Security I&A has developed a joint 
information bulletin that is classified, but has been provided 
to our key stakeholders throughout the State and local 
environment, and working together with the FBI, it is a prime 
example of being able to communicate that potential threat.
    But the concept is, is in order to provide those key 
leaders out there the ability to make informed decisions based 
on that threat in the localized context to their area of 
responsibility in order to make informed decisions on 
deployment of their resources in order to mitigate that threat. 
So that process is in place, and it is working well.
    Chief Bryant. One of the problems that State and local law 
enforcement has is that there are not many law enforcement 
officers at that level that have secret, not alone top secret 
clearance to receive the information. We work very well with 
our Federal partners, but in the fusion center, if there is not 
an FBI analyst to decipher and disseminate the information, it 
doesn't always come all the way down.
    Another disconnect with that two-way information-sharing is 
the officers who work on the street who are many times the 
first who would encounter a threat don't always realize the 
importance of pushing the information up. So there needs to 
additional education and awareness initiatives to ensure that 
more officers are sent to where they can receive the proper 
clearances and that the patrol officer on the street or the 
beat officer on the street knows what information is key to be 
pushed upward to our National levels.
    Mr. Velez-Villar. Yes, I would just like to point out, as 
well, the FBI uses a variety of mechanisms in order to ensure 
that not only the fusion centers, but all our State and local 
partners are positioned as well as they can be. Mr. McAllister 
mentioned the joint intelligence bulletins, but one of the most 
effective ways of doing this is through our Joint Terrorism 
Task Force. Obviously, any investigation regarding Hezbollah 
would be operated by the JTTF. We have Joint Terrorism Task 
Force executive boards in which we bring in the membership of 
these boards, which make up chiefs of police, homeland security 
advisers, and we brief them on on-going efforts on these 
threats, and we brief them in a classified environment, if need 
be, but we share that directly face-to-face with them.
    Mr. McAllister. Just to add to that, just to give you a 
context of how many State and local law enforcement and other 
first responders have security clearances, there are 
approximately 4,000 State and local first responders that have 
been provided secret-level clearances, if not higher.
    Mr. Meehan. Thank you, Mr. Higgins.
    The Chairman now recognizes the gentleman from Missouri, 
Mr. Long.
    Mr. Long. Thank you. I want to thank you all for being here 
today, No. 1.
    You don't need to turn around and look, but there are a 
couple of pictures on the wall behind you all that had gone 
missing from this committee room for a few years, and thanks to 
Chairman King, they have been returned as a reminder, one, of 
the Twin Towers engulfed in smoke and flames. The other one is 
two searchlights going up at nighttime from where the Twin 
Towers used to stand.
    With that, in our memory, I think you all aware that there 
was a CIA watch-listed individual that was pulled over by a 
Maryland State trooper 2 days before that event, and he was 
also one of the hijackers. Due to a lack of information 
sharing, we were unable to stop him or do anything that might 
have prevented the occurrence on 9/11.
    So, Mr. Quijas, I would like to ask you, are we doing all 
that we can in the area of information sharing among all law 
enforcement agencies in this country? If not, what are the top 
three areas that need to be addressed, in your opinion?
    Mr. Quijas. Thank you, sir. You know, again, I was a 
sitting chief on the morning of September 11, and tragically, 
as the events were unfolding in New York, I had two FBI agents 
that were sitting in my office briefing me, as we held the 
furniture market every year in North Carolina in High Point. I 
went from that period of really having to pull information out 
of our Federal partners to now we basically have went to the 
other end. In my travels, talking to the major city chiefs, the 
National Sheriffs' Association, IECP members, in some cases, I 
hear, ``We are getting too much information. Is there a way 
that we can vet out that information so when we get it, it is 
more accurate and actionable?'' That is what they want.
    So that State trooper that you talked about that pulled 
that car over, I can almost guarantee you today that that 
officer through either the JTTF or fusion centers or one of the 
other mechanisms out there sharing information would more than 
likely have that information.
    I have to agree with what the chief said. I think sometimes 
there is a little confusion about, you know, how much 
information people get, how it gets out to them, and I think 
the challenge for us in the future is making sure that we don't 
overwhelm our State and local partners, because at the end of 
the day they are still keeping our homeland secure. They are 
answering 9-1-1 calls. They are responding to burglaries. They 
are doing all the local stuff. Plus, we have also asked them to 
be on the front lines of keeping our country safe.
    So I think in reality we have to be at the Federal level 
more sensitive to--instead of just pushing more information 
out, is that information timely? Is it actionable? So our State 
and local partners can take action on that, help keeping our 
communities safe, and as we all know, eventually keeps our 
homeland safe.
    Mr. Long. Okay. Ms. Bryant, you were nodding your head to 
that ``too much information.'' Could you elaborate?
    Chief Bryant. Yes. Information overload is a casualty. It 
comes from receiving information from multiple sources. If you 
continue to receive it, you tend to discard it, that it is not 
important, because it is just too much. Sometimes we get the 
same information two and three times just from different 
sources, so if that could be vetted some sort of way so that 
the message gets out, but it is not circular reporting.
    Mr. Long. But are you able to get the critical information 
that you do need in a timely fashion? Do you feel between 
agencies information sharing?
    Chief Bryant. I think it is an on-going process----
    Mr. Long. There are no more turf battles?
    Chief Bryant. It is an on-going battle, but it is getting 
better. It really is getting better.
    Mr. Long. Okay.
    Chief Bryant. We are talking to one another, not talking at 
one another.
    Mr. Long. Next question is also for you, Ms. Bryant. I hail 
from the fastest-growing Congressional in Missouri. The 
Springfield, Branson, Joplin area of southwest Missouri grew 
the fastest over the last 10 years of any area in the State. My 
question was going to be: What could I tell my local law 
enforcement agencies who need a fusion center what steps they 
could take or what they need to do in that regard? But after 
your earlier testimony, where you said you all have been 3 
years trying to get a fusion center, I guess I would ask if you 
could perhaps point out some pitfalls or things to be wary of 
or how--if they could go forward without falling into a 3-year 
morass like you all have.
    Chief Bryant. I think, first, your law enforcement leaders 
should visit some of the fusion centers around the country that 
are operational and that are working together. First, before 
they even start the planning phase, they need to build the 
relationship with the Federal, State, and local 
representatives.
    If you don't have a relationship, you are going to have a 
hard way to go. Once that relationship is formed, you have to 
figure out, well, who is going to take the lead on the fusion 
center and what type of fusion center we want to have. Those 
are two crucial things that have to be done, and when those 
decisions are made, then it is just a matter of submitting the 
paperwork and getting started.
    Mr. Long. So you all do not have an operational fusion 
center as we speak?
    Chief Bryant. It is not fully operational, no. As I stated, 
some information is disseminated, but the information is from 
open sources. You could pretty much get it from anywhere. The 
law enforcement component to the fusion center is not quite 
together yet.
    Mr. Long. This is for any of you real briefly. How many 
operational operating fusion centers are there in the country?
    Chief Bryant. Seventy-two throughout the Nation.
    Mr. Long. Okay, without the--not counting Pittsburgh?
    Chief Bryant. Well, we are counted a little bit.
    Mr. Long. Mr. Quijas, I don't know if you ever had cause to 
run into my buddy Forest Mendenhall down there in High Point, 
but good auctioneer buddy friend down there.
    I yield back. Thank you.
    Mr. Meehan. Never losing an opportunity to push the 
business, huh, Mr. Long?
    [Laughter.]
    Mr. Meehan. Thank you, Mr. Long.
    At this point in time, the Chairman recognizes the 
gentlelady from California, Ms. Hahn.
    Ms. Hahn. Thank you, Mr. Chairman. I am really appreciating 
this hearing that we are holding this morning.
    I have a great success story from one of the two fusion 
centers in L.A. County. This was from a press account about the 
JRIC, which is the name of our fusion center. It was in 2006.
    As the month-long Israeli-Hezbollah conflict embroiled the 
Middle East earlier this year, in 2006, a group of analysts 
working on the seventh floor of an inconspicuous office 
building in Norwalk, California, near Los Angeles started to 
connect some dots. In a room with low cubicles to ease the flow 
of communication, specialists in areas like epidemiology, 
hazardous material, and terrorism intelligence began analyzing 
information and assessing various situations, possible threats, 
and potential targets.
    Through the JRIC intelligence, information valued for its 
currency and relevancy was furnished to agencies throughout 
Southern California, sending officers to reinforce sensitive 
locations, like the Jewish Federation of Greater Los Angeles. 
Soon after, on July 28, 2006, 1,200 miles from Los Angeles, a 
gunman opened fire at the Jewish Federation of Greater Seattle, 
wounding five women and killing one.
    While cities scrambled to protect their Jewish centers, the 
greater Los Angeles area was already prepared, thanks to the 
JRIC's foresight, said John Miller, FBI assistant director of 
public affairs. With its landmark model of interagency 
cooperation, the center is one step ahead of counterterrorism 
efforts Nation-wide, predicting threatening situations instead 
of reacting to them.
    The JRIC, a multi-agency fusion center, looks strategically 
at all criminal activities locally and internationally. Since 
opening, the center has grabbed the intelligence community's 
attention and received praise from law enforcement agencies.
    I thought it would be great to offer a success story this 
morning as we talk about how critical and important these 
fusion centers are. Sitting here as a relatively new Member of 
Congress, you know, knowing what this center was able to 
prevent, and then hearing from Ms. Bryant of centers that are 
still not up and running, and talking about how we might 
continue as Congress to ensure that we connect the dots--
because that is really what this is about. Since 9/11, that 
seemed to be the recurring theme for us was, how do we connect 
the dots?
    We also have one at the Port of Los Angeles, which, you 
know, the Port of Los Angeles between Los Angeles and Long 
Beach is the largest port complex in the country. Forty-four 
percent of all the trade that comes into this country comes 
through that center. We know, if something were to happen at 
one of those ports to knock it out of service, it would cost 
this country, I believe, $2 million a day in our local economy. 
By the way, every Congressional district depends on what comes 
through those ports.
    I am concerned about the funding. You know, I feel like we 
need a continued revenue stream of funding for our fusion 
centers. I am worried that many of these analysts in these 
fusion centers were grant-funded, and I am concerned of some of 
the--some of you have alluded to it, but I guess my question 
would be, what do you see, realistically, as the impact of some 
of our cuts back here, particularly in some of these security 
grant fundings projects? What is that going to have--what kind 
of an impact is that going to have, particularly on the 
analysts that are in these fusion centers that, as I just read 
that story, were critical in preventing a deadly attack in Los 
Angeles?
    So I am concerned about--I am concerned about the ports, 
and I am concerned about the grant-funded analysts in these 
fusion centers across the country.
    Mr. McAllister. First, I could not have more eloquently 
described a success story that, again, hearkens back to that 
taking threat information, applying a localized context to it, 
and then developing a mitigation strategy on how to address 
that threat.
    Pertaining to grants, again, remember that there--the State 
and local fusion centers are locally owned, and they have a 
variety of different sustainment methods in order to use either 
general revenue or some grant money in order to sustain those 
efforts.
    Ms. Hahn. But I--let me just say, the centers have received 
$426 million in Federal funds since 2004.
    Mr. McAllister. Correct. What we do is we work to convey 
the Secretary's message as far as how important when it comes 
to the grant language that the National network of fusion 
centers is interwoven into those sustainment efforts, through 
grant language, as well as working on the assessment and 
metrics in order to provide your colleagues here with the 
return on investment from those already invested dollars that 
have come from Congress.
    Ms. Hahn. Anybody else want to speak to the port security 
issue?
    Mr. Velez-Villar. I can't speak to the funding issue, but I 
can tell you about the port security issue. Having come from 
L.A.--and I served as the Joint Terrorism Task Force supervisor 
in Long Beach and was on the executive committee for the JRIC, 
so I appreciate the comments on the JRIC and the success.
    With regard to the ports, whether there is funding from DHS 
to the fusion center for that, ultimately from a JTTF 
perspective, protecting those ports was extremely important to 
us. We created a squad at the FBI office solely dedicated to 
port security. I served on the area maritime security committee 
with the Coast Guard captain of the port, and we are constantly 
working with the port to ensure that that infrastructure is 
protected.
    Ms. Hahn. Thank you. I will yield my time.
    Mr. Meehan. Thanks, Ms. Hahn.
    At this point in time, the Chairman will now recognize the 
gentlelady from New York, Ms. Hochul.
    Ms. Hochul. Thank you, Mr. Chairman. I also want to 
congratulate my colleague, Congressman Higgins, on his 
elevation as our Ranking Member on this subcommittee, so thank 
you. It is great to be able to tag-team on issues that relate 
to the Canadian border, as well. It is something that we are 
very concerned about.
    I am sorry I missed the earlier testimony. In fact, I am on 
deck to ask questions of the Secretary of the Air Force about 
something in our area, so I have to--I only am going to have 
time for one question, because I have to run over there.
    But representing the western New York area on the border 
with Canada, tell me how our relationship with the Canadian 
government has improved with respect to information sharing 
since 9/11? That is critically important, with the four bridges 
we have, bringing lots of people into our communities from 
Canada, which has certainly standards to get into the country, 
but we are always concerned about people crossing the border. 
The airports, the air base we have there, and actually the 
critical infrastructure, which is a huge hydroelectric power 
facility that gives power to the grid to take to New York City.
    So in my sense, we have some vulnerabilities up there, but 
I want to know what is being done to engage the Canadian 
government and how you feel that is going and, No. 2, can it be 
improved?
    Mr. McAllister. If I may--and I know you are short on 
time--but the Secretary is very collaborative in the Beyond the 
Borders Initiative. Our under secretary of intelligence and 
analysis was just up with Canadian officials to address 
information sharing and collaboration across the border, 
particularly in the area of suspicious activity reporting and 
the like.
    So if you would like--I know you are short on time--we are 
more than happy to come back and give you a more thorough brief 
on what is underway.
    Ms. Hochul. My question is: Are you comfortable with the 
level of cooperation? Or is there room for improvement?
    Mr. McAllister. My personal experience has been that the 
Canadians are--have a thirst for knowledge and have the proper 
perspective in order to do the right and collaborate in that 
information sharing and collaboration across the border in 
order to ensure both Canada and the United States is safe.
    Ms. Hochul. Thank you.
    I yield back the rest of my time, Mr. Chairman. Thank you.
    Mr. Meehan. Thank you for taking the time, Ms. Hochul, to 
juggle the balls, but to get here for our committee hearing.
    I now appreciate that we have been joined by another 
seasoned veteran of the committee, and at this point in time, 
if the gentleman from Minnesota is prepared to ask a question, 
we would be delighted to entertain that opportunity.
    Mr. Cravaack. Thank you, Mr. Chairman. Appreciate it.
    Let's see. I am trying to catch up, so--I just came out of 
one committee, so I apologize to the Members of the committee. 
Thank you very much. It is very important what you do, and I am 
going to jump on in.
    Fusion centers were originally intended to serve as a 
conduit for information to flow from State and local 
enforcement to Federal Bureau of Investigation's Joint 
Terrorism Task Force, JTTFs, and to promote regional 
information sharing to combat terrorism by combining Federal, 
State, and law enforcement resources.
    Is there any metric that you can tell me in place to 
measure how intelligence gathered at fusion centers has 
supported the Federal counterterrorism investigations? I will 
just open that up to a broad question.
    Mr. Velez-Villar. Sir, I can't speak of a specific metric 
that has been captured. I know within our organization, within 
the FBI, we actually do capture--whenever we conduct an 
investigation, whether it is terrorism-related or whether it is 
criminal investigations, if there is support from the fusion 
center, we capture that on a form that we utilize in which we 
give it a score from one to four pertaining to the amount of 
assistance that was provided by the fusion center. So we do 
capture that internally within our field offices.
    Mr. McAllister. Just to add to that, JTTFs are involved in 
counterterrorism investigations and are operated and owned by 
the FBI. Fusion centers are locally owned and operates and 
collaborate in a more broader focus. They collaborate with each 
other, which is important to note. Through the analysis that 
fusion centers do, they complement what investigations are 
underway by the JTTFs.
    Mr. Cravaack. So you find the communication to be pretty 
good, back and forth?
    Mr. McAllister. Yes, sir.
    Mr. Cravaack. Excellent. Federal guidance required that by 
October 29, 2010, DHS was to develop an annual reporting 
process that would document the total operational sustainment 
costs of each of the 72 fusion centers in the National network. 
Has this been completed yet?
    Mr. McAllister. We are completing the 2011 assessment on a 
National network. That document should be finalized and 
available within the next month or two. We will be happy to 
share that with you at that time.
    Mr. Cravaack. Any red herrings?
    Mr. McAllister. Not that I am aware of, but I have only 
been here since December, so----
    Mr. Cravaack. Welcome aboard.
    Mr. McAllister. Thank you.
    Mr. Cravaack. Let's talk a little bit about mission creep. 
The number of fusion centers has gradually increased to about 
77. Furthermore, the original mission of the fusion centers 
expanded from preventing terrorist attacks in some places to 
criminal analysis and emergency management. Has DHS strictly 
defined the limit or scope of fusion centers' mission or our 
jurisdiction?
    Mr. McAllister. The answer is no. Fusion centers are owned 
and operated locally. They are designated by the Governor or 
the particular State that they reside in, both in primary and 
recognized fusion centers. What we bring to bear is we provide 
the senior intelligence officers and the secure network in 
order for them to receive secure information, analyze it in a 
local context, determine what is of value as far as a 
mitigation strategy, as well as providing that localized 
context back up through the intelligence community to add value 
there.
    Mr. Cravaack. In your opinion--and this is a 
generalization, since you have been on-board since December--
how many total fusion centers are needed to ensure the country 
remains safe? Is 77 enough? Do you think we need more? In your 
opinion, in analyzing the threats that are out there and the--
and the geography of those, the demographic of those threats, 
what do you think?
    Mr. McAllister. I served as the deputy homeland security 
adviser for the State of Florida, and there we had more than 
one fusion center in that State. But what was incumbent upon me 
and other senior executives within the State was to determine 
the architecture in which information and information sharing 
would be shared.
    In response to my opinion, we cannot say a specific number, 
as far as what is the ideal amount. That is determined by State 
and local officials, as well as the Governors of the States and 
territories.
    Mr. Cravaack. Okay, thank you. Let me just--if you don't 
mind, switch gears a little bit. Let's talk about immigration, 
border security. It has come to my attention that ICE personnel 
serve at some of the fusion centers. Is that correct?
    Mr. McAllister. We have some personnel commingled in the 
fusion centers, but at a minimum--and, again, I can base this 
on my experience--at the State of Florida, the State fusion 
center there, we didn't have an ICE personnel there, but our 
analysts had built relationships with those individuals in 
order to have a seamless collaboration on any--with that 
component, as well as other components within DHS.
    Mr. Cravaack. Okay. How much of ICE's fusion center would 
you say is related to illegal immigration? Would that be 
something that is specifically on your radar for any length of 
time? Is it constant? What would you say?
    Mr. McAllister. If I may, I would prefer taking that back 
in order to get you the proper answer.
    Mr. Cravaack. Okay. Okay.
    Mr. McAllister. Thank you.
    Mr. Cravaack. Do you think that--this is another general 
question--I would like to ask each one of the members--if I may 
just be indulged, sir--let me ask you this question. Do you 
think we have a secure Southern Border? I will just take it 
down the row, if you don't mind.
    Mr. McAllister. I think that we have secured the border 
more and that, as with any initiative or issue, there is always 
room for improvement. If we can--you know, as a normal business 
process, try and close those gaps, we strive to do so.
    Mr. Cravaack. Do you think it is a vitally important 
mission?
    Mr. McAllister. Absolutely.
    Mr. Cravaack. Sir, can I ask you?
    Mr. Quijas. As Scott said, I have to agree that--I mean, it 
is an on-going process. It is not an event. As long as we 
continue to develop our relationships with our other Federal, 
State, and local partners that have responsibility for the 
Northern Border, I believe we are situated currently to have a 
very secure Northern Border.
    Mr. Cravaack. Coming from Minnesota, we appreciate that, 
so--sir?
    Mr. Velez-Villar. Yes, I would just echo what my colleagues 
have said. Obviously, from the FBI's perspective, when it comes 
to the Southern Border, we need to ensure that we are doing 
everything possible to ensure that any violence or any crimes 
along those borders are not coming through over the border into 
our communities, and we are working very closely with our 
partners along the borders to ensure that we effectively 
mitigate those types of threats.
    Mr. Cravaack. You would agree this is a vitally important 
mission?
    Mr. Velez-Villar. Absolutely.
    Mr. Cravaack. Thank you. Thank you, sir.
    Ma'am.
    Chief Bryant. I think for any of us to say that something 
is completely secure would give a--would not be good to do. We 
continually work to make sure that we do the best that we can 
to make sure that our borders are safe, and that is with 
working together.
    Mr. Cravaack. You would agree that is a vitally important 
mission, as well?
    Chief Bryant. Yes.
    Mr. Cravaack. Thank you, ma'am.
    Thank you, Mr. Chairman, for the Chair's indulgence.
    Mr. Meehan. Thank you to the gentleman from Minnesota.
    I just have a quick follow-up line of inquiry, and I will 
certainly invite any of my colleagues if they have any follow-
up questions to do so, as well. But I follow again from the 
recognition, Mr. McAllister--among others, you have testified 
that we have created this separation from the local fusion 
centers, in the sense that they are products of State and local 
government, so we encourage them, but we have created some kind 
of separation.
    My fear is of--sort of two sorts. One is that we have 
created an expectation and we see the situation in Pittsburgh 
where they have stood one up, but it isn't getting the full, 
you know, level of support. Or is it inappropriate to have so 
many, if, in fact, they are not going to be able to be, you 
know, fully supported by a commitment from every agency to 
participate?
    Then you see differences among them, where some are all-
hazards and others seem to be more focused on counterterrorism. 
How are we communicating with the local level to create some 
kind of a sense of standardization and expectation with regard 
to what we want from them? I would like to ask Mr. Quijas and 
Mr. McAllister to respond to that.
    Mr. McAllister. Thank you, sir.
    First of all, there was developed baseline capabilities for 
all State and urban fusion centers. That was done in--I think 
it was 2009. As building upon that, there was grant language 
that indicated that recognized fusion centers need to try and 
adhere to that baseline capability so we have consistency 
across the United States.
    Further development was in 2010. Part of that grant 
language indicated that in order to use preparedness grant 
monies that the insurance--or the fusion centers have a privacy 
policy in place, as well as compliance for all the personnel to 
28 CFR Part 23, which deals with civil rights and civil 
liberties.
    There is a build-up to that, as well as what is important 
to note is we work on the not only individual fusion centers 
that are, again, owned and operated by local governments and 
recognized by the Governors, but on a National network, as 
well. So not only do we have information coming down from the 
Federal Government and that localized context taking place, but 
also fusion-center-to-fusion-center collaboration.
    As an example, I can note one from Pennsylvania, actually, 
which was a rape suspect who had committed a crime in 
Pennsylvania. The Pennsylvania fusion center had obtained 
partial information on a main tag that collaborated with the 
main fusion center, identified the suspect, found out that he 
had traveled over into Canada, and subsequently through the 
sharing of that information, led to an arrest in Canada for 
that particular individual.
    Mr. Meehan. How do we protect against what Ms. Bryant was 
identifying, which is that there seems to be no consistency 
with respect to how that pattern of communication takes place? 
If you are talking fusion center to fusion center and then JTTF 
down to fusion center and, you know, you have got a lot of 
different ways the circuitry can work, is there any 
predictability as to how it will regularly work? Or is it just 
sort of catch as catch can?
    Mr. McAllister. No, there is a system in place, sir. That 
is further developed by the information-sharing environment, 
through the PMISC, as it is called, which standardizes the flow 
of information and intelligence down, as well as outward, 
throughout the fusion center network.
    I would be more than happy to further brief you at a later 
time on that.
    Mr. Meehan. Okay. Well, we may follow up on that. I thank 
you.
    My last question relates to this issue of privacy, because 
the extent to which the local fusion centers, are they 
conducting any of their own internal investigation and creating 
some kind of local objective, either in all-hazards or in 
particularly in monitoring and preventing future acts of 
terrorism by understanding what they believe is going on in 
their own region?
    Mr. Velez and Ms. Bryant, maybe you could help me with 
that.
    Mr. Velez-Villar. I can't speak--I know the fusion centers 
have privacy officers within each fusion centers. They take 
civil liberties and privacy very seriously.
    I could speak on behalf of the FBI, if that helps any. With 
regards to privacy, civil liberties are something that we take 
extremely seriously. Any time that we conduct an investigation 
or an assessment, we are guided by a series of guidelines that 
are very strict. The Constitution allows us to do certain 
things. The attorney general guidelines allow us to do other 
things.
    Our bureau policies are even more strict, and that is how 
we ensure that we take into account all the civil liberties and 
the privacies of all our investigations and our assessments.
    Chief Bryant. We are sworn to protect the civil liberties 
of all individuals, so it is very important to us that we put 
measurements in place to protect those privacies and so that we 
don't do something that infringes on someone else's rights. So 
I can't speak for all fusion centers, but I am sure that is a 
top priority in each one of them.
    Mr. Meehan. But you think there is sufficient training and 
guidelines and otherwise to protect against the abusive 
information that can be held and developed at a local level and 
disseminated to others with the imprimatur of intelligence that 
comes from a governmental agency?
    Chief Bryant. We could always use additional training. 
Training cannot hurt. We can always use additional training.
    Mr. Meehan. All right. Thanks, Ms. Bryant.
    Mr. McAllister. Mr. Chairman, I can give you some 
statistics on that, if you would like. There are 77 privacy 
policies in place right now. Grant guidance calls for, like I 
said earlier, that all personnel comply with 28 CFR Part 23 
training, as well as have an approved privacy policy in place.
    There is a joint DHS-DOJ technical assistance program that 
is in place that supports the development of further privacy 
policies, working with civil liberties advocates within the 
communities, and as well as training for analysts in that 
particular endeavor.
    We also have a privacy, civil rights, civil liberties 
institute training program that has developed train-the-trainer 
curriculum, and so far, we have had privacy and civil rights, 
civil liberties train-the-trainer at 69 fusion centers, on-site 
training for 35 fusion centers, as well as there are web 
resource toolkits that are available and a subject matter 
expert flyaway team, in order to go deal with a hot-button 
issue that might emerge.
    So there has been great emphasis placed on not only by the 
Secretary, but the Department on the protection of privacy and 
civil rights and civil liberties.
    Mr. Meehan. Thank you.
    At this point in time, do any of my colleagues--Mr. 
Higgins? Any further--Mr. Long? One follow-up question?
    Mr. Long. Thank you, Mr. Chairman. I take umbrage with the 
fact that you sort of chastised me a while ago for giving what 
you thought was a shameless plug for a friend in North 
Carolina, but I didn't even mention that Mr. Quijas worked 25 
years for the Kansas City, Missouri, Police Department in the 
Show-me State, where the Missouri Auction School is located. 
Now, that would have been a shameless plug, if I would have 
said that.
    I want to direct this to the entire panel, concerning the 
Secret Service, counterfeiting operations, and internet 
financial fraud, so that is going to be the--any of you can 
answer if you will, but what regular intelligence data sets are 
provided by the Secret Service regarding counterfeiting 
operations and internet financial fraud? How is this data 
shared with State and local agencies? I ask, because a small 
land title company in Springfield, Missouri, had $400,000 
lifted out of their bank account a little over a year ago, and 
over a weekend. It went overseas, never to be returned.
    The United States Secret Service led that investigation, 
which I didn't understand that exactly, but--and this isn't the 
first cyber crime in my district. So I want to make sure we are 
doing what we can to help.
    Mr. McAllister. If I may, Secret Service is a component of 
the Department of Homeland Security. If, with your permission, 
we will get a detailed brief on their efforts to combat----
    Mr. Long. Great.
    Mr. McAllister [continuing]. Cyber crime.
    Mr. Long. Okay. Okay. Okay, and thank you all again for 
being here today.
    Mr. Meehan. I thank the gentleman from Missouri, and I 
thank the panel for your preparation and for your being here 
today, but most significantly for your work each and every day 
in helping us to continue to be on the forefront of protecting 
not just the homeland, but America across the world against the 
threat of terrorism and the threat to our homeland. So thank 
you for your service.
    I ask you, as well, to continue to be diligent in helping 
us to grow this bureaucracy--effective, to be sure, but it is a 
huge challenge. We have got to be the ones ensuring that there 
are efficiencies and, you know, effective communication up and 
down the line.
    So I want to thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the committee may have some additional questions for the 
witnesses, and we will ask you to respond in writing for those 
if they are forwarded. So the hearing record will be held open 
for 10 days.
    So, without objection, the committee stands adjourned. 
Thank you.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions Submitted by Chairman Patrick Meehan for Scott McAllister and 
                            Louis F. Quijas
    Question 1. The Baseline Capabilities for State and Major Urban 
Area Fusion Centers include ``strategic analysis services.'' How have 
these services been used by DHS to develop a National threat picture?
    Answer. State and major urban area fusion centers (fusion centers) 
are State and local resources. The strategic analysis services that the 
Baseline Capabilities encourage fusion centers to develop are intended 
to serve their respective State, local, Tribal, and territorial (SLTT) 
jurisdictions. These strategic analysis services enable local officials 
and front-line personnel to understand the local implications of 
National intelligence and better protect their communities. The DHS 
Office of Intelligence and Analysis (I&A) does, however, leverage 
fusion center strategic analysis to inform analysis of the evolving 
threat environment and create a more comprehensive and holistic 
National threat picture. For example, in March 2012, I&A produced a 
collaborative analytic product exploring the possibility of illicit 
khat sales being utilized to raise funds for terrorist activity that 
incorporated reporting from five fusion centers.
    Question 2. DHS has participated in drafting Federal strategies 
such as the Obama administration's Strategy to Combat Transnational 
Organized Crime. This strategy covers many types of illegal activity 
such as drug trafficking, human smuggling, trafficking in persons, 
intellectual property theft, and cybercrime. These affect Americans at 
the State and local level every day. Since 9/11, fusion centers have 
evolved to deal with criminal, public safety, and terrorism matters 
across multiple disciplines.
    Has DHS considered leveraging fusion center assets to help with 
National-level strategies that deal with issues other than terrorism?
    Answer. DHS Office of Intelligence and Analysis (I&A) regularly 
engages Fusion Centers in strategy and policy development. Recent 
examples include the National Intelligence Priorities Framework and 
Presidential Policy Directive--8 National Prevention Framework.
    In addition, I&A is leveraging fusion center assets for 
intelligence production and information gathering to support the 
execution of National strategies, and to address National homeland 
security issues related to transnational criminal activities and 
enterprises. For example, as part of the DHS Priority Actions 
Implementing the White House Transnational Organized Crime (TOC) 
Strategy in 2012, I&A personnel are working with the fusion centers to 
develop regional production and collection plans which address the 
collective TOC-related intelligence and information needs of Federal, 
State, and local stakeholders. These production plans will include the 
identification of intelligence gaps related to TOC which are of 
interest to both DHS and the fusion centers, and which can be answered 
through the generation of intelligence products--either by I&A, DHS 
Components, the fusion centers, or through interagency joint production 
efforts. Additionally, related information collection plans are being 
developed to identify how DHS, intelligence community, and Federal, 
State, and local assets can be effectively and appropriately leveraged 
to gather information to fill critical information gaps about TOC 
adversaries and operations. I&A is also using this collaborative 
intelligence support planning approach with the fusion centers to 
support Federal, State, and local law enforcement and public safety 
operations related to TOC prevention and interdiction.
    Question 3. Not so long ago there were 72 fusion centers. Today, 
that number is 77. Would you please explain how and why that number 
continues to grow? Is DHS planning to assign Intelligence Officers to 
each of these new centers? At what point do we reach a saturation point 
where the number of fusion centers yields diminishing return, 
particularly in the current fiscal environment?
    Answer. Fusion centers are State and local entities designated by 
State governors, and with the bulk of a fusion center's work supporting 
State and local needs; therefore, DHS does not control their number. 
While the number of fusion centers has held steady at 72 for several 
years, over the past several months, the Governor of the U.S. Virgin 
Islands notified DHS of the creation of a territory-wide fusion center 
and the Governor of Texas notified DHS of four additional recognized 
fusion centers for a new total of 77. Like the decision to designate 
fusion centers, the saturation point for the number of fusion centers 
is a State-by-State decision.
    DHS uses the June 2011 Federal Resource Allocation Criteria (RAC) 
Policy issued by the Program Manager for the Information Sharing 
Environment (PM-ISE) to prioritize allocation of Federal resources such 
as an intelligence officer, classified connectivity, training courses, 
and technical assistance to fusion centers.
    Question 4. What are DHS' primary objectives in providing funds and 
personnel to State fusion centers? Do these objectives match the State 
fusion centers objectives?
    Answer. DHS does not provide funds to fusion centers. Grant funds 
are available to States which may in turn use them to support fusion 
centers, but fusion centers are primarily funded and staffed by State 
and local governments.
    DHS does support the fusion centers through the deployment of 
intelligence officers, classified connectivity, training courses, and 
technical assistance. Through the deployment of these resources, DHS 
objectives are to establish focal points within the State and local 
environment for the receipt, analysis, gathering, and sharing of 
threat-related information among Federal and State, local, Tribal, and 
territorial (SLTT) partners in support of homeland security and 
counterterrorism objectives. While important, these Federal objectives 
are seldom enough to justify the substantial State and local investment 
in each fusion center. Therefore, each fusion center has primary duties 
that vary based on the environment in which the center operates; some 
have adopted an ``all-crimes'' approach, whereas others have also 
included an ``all-hazards'' approach. DHS will continue to focus its 
support on achievement of the identified critical operational 
capabilities (receive, analyze, disseminate, and gather), while 
respecting that a fusion center's mission will also be defined based on 
jurisdictional needs.
    Question 5. Do you believe there is a long-term need for separate 
offices with outreach to State and local law enforcement, or in your 
opinion could it someday make sense to roll the mission into a single 
place within DHS?
    Answer. The breadth of DHS's support for State, local, and Tribal 
law enforcement make its effective provision by a single DHS office 
unlikely. DHS's support goes beyond intelligence and information-
sharing matters, to include coordination during policy development and 
operational activities, such as responses to or recovery from an 
incident. While the Office of Intelligence & Analysis (I&A) leads 
efforts to support the timely sharing of intelligence and information 
through fusion centers, DHS Components also engage State and local law 
enforcement partners beyond fusion centers (e.g., U.S. Customs and 
Border Protection on border-related issues, U.S. Coast Guard on 
maritime issues). In addition, the Office for State and Local Law 
Enforcement (OSLLE) plays an important role in advocating for and 
advising the Secretary on the issues, concerns, and requirements of our 
State, local, and Tribal law enforcement partners during policy 
development and strategy formulation. In order to assist DHS in 
synchronizing and aligning the internal DHS messaging about Department-
level initiatives and programs, the OSLLE chairs an internal DHS 
coordination body--the Component Law Enforcement Outreach Committee 
(CLEOC) whose mission is to align and coordinate with the Component-
level offices located throughout DHS who perform outreach to non-
Federal law enforcement. As described in the response to Question No. 
6, the National Operations Center (NOC) within the Office of Operations 
Coordination and Planning (OPS) provides incident and event reporting 
to homeland security enterprise partners, including State and local law 
enforcement stakeholders, through the NOC's common operating picture.
    Question 6. By maintaining multiple offices within DHS that 
outreach to State and locals in different ways, are we inadvertently 
reducing the effectiveness of the fusion centers? Particularly given 
this budget climate, if we were to truly focus State and local 
information sharing at the fusion centers, would it raise the stature 
of the fusion centers, and perhaps ultimately make them more valuable 
to their State thereby helping them in the fight for State grant 
dollars?
    Answer. DHS offices carry out different mandated functions which 
require engagement with State, local, and Tribal partners based upon 
their mission set or for matters that fall outside of the intelligence 
and information-sharing realm. Departmental-level intelligence and 
information sharing is focused through fusion centers (for strategic, 
operational, and tactical products) and the Office of Intelligence and 
Analysis (I&A), but this is only one piece of the daily interaction 
that the Department's Components and offices have with State, local, 
and Tribal governments. For example, the Office for State and Local Law 
Enforcement (OSLLE), through its daily interactions with law 
enforcement associations, is responsible for sharing information about 
DHS programs and initiatives. The OSLLE is also responsible for 
ensuring that DHS leadership is aware of and considers the issues, 
concerns, and requirements of the State, local, and Tribal law 
enforcement communities during Department-wide policy development.
    Question 7a. Is there an accounting of how many different offices 
within the Department with ``State and local outreach'' or ``State and 
local information sharing'' as part of its mission?
    Answer. The main DHS offices responsible for State, local, and 
Tribal outreach are the Office for State and Local Law Enforcement 
(OSLLE) for law enforcement associations and the Office of 
Intergovernmental Affairs (IGA) for State, local, Tribal and 
territorial elected and appointed officials. The Office of Intelligence 
& Analysis (I&A) is the lead for intelligence and information sharing. 
Other DHS Components have direct communication with their State, local, 
and Tribal counterparts on operational issues.
    Question 7b. How many of those offices have regular, direct contact 
with State and local law enforcement, versus passing their information 
through one of your offices?
    Answer. All DHS Operating Components have regular contact at the 
operational level with their counterparts in State, local, and Tribal 
law enforcement. This contact cannot and should not be confined to a 
single office.
    Question 7c. How are these offices coordinating with each other?
    Answer. The OSLLE chairs an internal DHS coordination body--the 
Component Law Enforcement Outreach Committee (CLEOC) whose mission is 
to align and coordinate with the Component-level offices located 
throughout DHS who perform outreach to non-Federal law enforcement. In 
addition, IGA holds weekly calls with all of the DHS intergovernmental 
offices or component points of contact. IGA also holds quarterly face-
to-face meetings. During these calls and meetings, the participating 
offices provide read-outs on current and future interactions with 
State, local, Tribal, and territorial officials to ensure effective 
coordination across the Department. Additionally, IGA has specific 
points of contact within each component/office. As topics/issues arise 
that should be brought to the attention of other DHS Offices, IGA helps 
to facilitate that conversation and coordination.
    Question 7d. Who is ultimately ``in charge'' of ensuring they are 
coordinating?
    Answer. While IGA, OSLLE, and I&A share this responsibility with 
specific stakeholders, IGA's weekly coordination call helps to increase 
and facilitate the level of coordination between these offices.
    Question 7e. What ability does that office/person have to hold 
other ``outreach offices'' accountable for coordination?
    Answer. Regular communications occur between IGA, OSLLE, and I&A to 
ensure that stakeholder outreach is well-coordinated and effective, and 
it is in everyone's best interest to ensure that the meetings, 
briefings, and messages to our stakeholders are delivered in a clear 
and consistent manner.
    Question 8. The President's budget for fiscal year 2013 proposes to 
consolidate eligible activities of the State and local preparedness 
grants into a single grant program, the National Preparedness Grant, 
with priority given to projects that are determined to be ``deployable 
assets.'' In your estimation, would fusion centers be considered a 
deployable asset?
    Answer. Fusion centers are not deployable assets. The proposed 2013 
National Preparedness Grant Program (NPGP) vision document clearly 
states that a portion of grant funding may be used by States and high-
threat urban areas to sustain core capabilities that may or may not be 
deployable, such as fusion centers.
    Question 9. Given the deep cuts we have seen to the DHS grant 
dollars for SLT Law Enforcement, what impact will these cuts have to 
the continuing maturation of fusion centers across the network?
    Answer. DHS is committed to resourcing the homeland security 
mission responsibilities of the fusion centers by providing deployed 
intelligence officers, training, technical assistance, exercise 
support, security clearances, connectivity to Federal systems, and 
technology. However the overall resourcing of each fusion center is 
dependent on the circumstances of their State or local government's 
budget and commitment to the effort, or on their successful competition 
for, and subsequent distribution of, grant dollars. With regards to 
grants, the amount of grant funds leveraged by individual State 
Administrative Agencies (SAAs) for fusion centers varies greatly. DHS 
cannot predict the exact impact of the reductions in grant funding. 
Fusion centers continually compete for funding support with all other 
State and local homeland security and emergency management-related 
priorities, such as interoperable communications, emergency operations 
planning and emergency operation centers, personal protective 
equipment, etc.
    Question 10. Currently, States have discretion in allocating 
homeland security grant funds for fusion center activities. Do you 
believe this structure has provided sufficient Federal funding to 
fusion centers? If not, what guidance would you provide the States to 
assist them in determining appropriate levels of funding for fusion 
centers?
    Answer. Ideally, each State and local entity with a fusion center 
would sustain it largely through its own resources, with DHS providing 
an intelligence officer, classified connectivity, training and other 
assistance directed at the portion of the fusion center's work 
dedicated to homeland security mission responsibilities. In many fusion 
centers, this is already the case. In others--predominately those that 
are still building their capability--the fusion center is heavily 
reliant on the Federal grants process. The State Administrative 
Agencies (SAA) must consider a variety of factors unique to each 
individual State when determining the amount of grant funds allocated 
to the fusion center. DHS's position is that States should direct 
Federal grant funds towards identified gaps in their achievement of 
Baseline Capabilities. These goals are identified and updated via 
participation in the annual Fusion Center Assessment Program, managed 
by DHS, which is a requirement for access to DHS grants.
    Question 11. Secretary Napolitano has repeatedly stated that State 
and Local Fusion Centers are the primary contact point between the 
Department (DHS) and State and local law enforcement. Would you please 
elaborate on why having a State and Local Law Enforcement Office within 
DHS Policy--and separate from the State and Local Program Office--is 
necessary?
    Answer. In 2007, Congress created the Office for State and Local 
Law Enforcement (OSLLE) to be the voice for State, local, and Tribal 
law enforcement within DHS. OSLLE acts as the Departments primary 
liaison between DHS and our non-Federal law enforcement partners.
    In October 2011, Secretary Napolitano spoke to the International 
Association of Chiefs of Police (IACP). In her address, she stressed 
the importance of the OSLLE and its unique mission: `` . . . [W]e 
recently filled a critical position at DHS that I know is important to 
IACP members--our Assistant Secretary for State and Local Law 
Enforcement. We're proud to have Lou Quijas now leading this office. He 
is well-known to the IACP, having worked closely with you during his 
time overseeing the FBI Office of Law Enforcement Coordination. And as 
the former Chief of Police of High Point, North Carolina, and a 25-year 
veteran of law enforcement in Kansas City, Missouri, he understands the 
needs and perspective of our Nation's police officers. I know he is 
committed--as I am--to strengthening our partnership not just with 
IACP, but all law enforcement, at all levels.''
    The OSLLE is not a source of intelligence or operational 
coordination, but rather is the Department's liaison to strengthen the 
partnership and sharing of ideas and opportunities between DHS and the 
non-Federal law enforcement community.
    To ensure that this information is coordinated between the DHS 
Components and messaging is consistent, the OSLLE formed the DHS 
Component Law Enforcement Outreach Committee, an intra-agency 
coordination body composed of members from across the Department that 
have some level of responsibility for outreach to our non-Federal law 
enforcement partners.
    Within DHS, the OSLLE serves as an advocate for non-Federal law 
enforcement. As an outreach office, the OSLLE is responsible for 
ensuring that DHS leadership is aware of and considers the issues, 
concerns, and requirements of State, local, and Tribal law enforcement 
during policy development and strategy formation. As Assistant 
Secretary Quijas stated in his oral testimony to the Committee on 
Homeland Security, Subcommittee on Counterterrorism and Intelligence on 
February 28, 2012, ``I believe this was the intention of Congress when 
it created and named my office, the Office for State and Local Law 
Enforcement.''
    In contrast to the OSLLE, the DHS Office of Intelligence and 
Analysis (I&A) has the mandate within the intelligence community (IC) 
to share strategic information, operational information, and 
intelligence with State, local, and Tribal governments and the private 
sector. This is a vital and high-priority mission within DHS; however, 
it is distinct from the mission of the OSLLE. Although, when 
appropriate and authorized, the OSLLE may assist in expanding the 
dissemination of this type of information, I&A remains the primary 
component within DHS responsible for the analysis and dissemination of 
operational information and intelligence through various means, to 
include State and major urban area fusion centers. Additionally, DHS 
Components also have direct communication with law enforcement 
partners, including fusion centers, to coordinate and share information 
related to operational issues in accordance with their respective 
missions.
    The distinction between I&A, operational components, and the OSLLE 
is a matter of type and scope of information. I&A focuses primarily on 
the analysis and sharing of information and intelligence, and DHS 
components focus on the coordination of operational activities and 
information. The OSLLE focuses on coordinating Departmental positions 
and communicating to our non-Federal law enforcement partners a broad 
range of information, including DHS initiatives and the opinions, 
concerns, and requests of State, local, and Tribal law enforcement 
officials that can affect and be affected by Departmental policy.
  Questions Submitted by Chairman Patrick Meehan for Eric Velez-Villar
    Question 1. What criteria does the FBI use to determine which FBI 
employees are assigned to fusion centers? What additional training, if 
any, does the FBI provide to its personnel assigned to fusion centers?
    Answer. Response was not received at the time of publication.
    Question 2. From an information management perspective, some fusion 
centers leaders note the requirement for their personnel to routinely 
check numerous Federal information and intelligence systems to be 
certain they are aware of all of the intelligence that may be relevant 
to their State. What have you done, perhaps jointly with the DHS and/or 
the Office of the Director of National Intelligence's Program Manager 
for the Information Sharing Environment, to streamline how FBI 
information flows to fusion centers?
    Answer. Response was not received at the time of publication.
    Question 3. It is the committee's understanding that to standardize 
its approach to interacting with fusion centers, the FBI Fusion Center 
Integration Unit (FCIU) has evaluated its field offices' engagement 
with fusion centers. What are the FBI's plans to work closer and more 
effectively with fusion centers and promote the continuity of 
information sharing at the field office level, not merely headquarter-
released products? What steps have you taken to require all field 
offices to take the same forward-leaning information-sharing approach?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
